App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
------------------------------------------------------

No. 18-31074
------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
SHELTON BARNES; MICHAEL JONES; HENRY
EVANS; PAULA JONES; GREGORY MOLDEN, M.D.,
Defendants-Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
-----------------------------------------------------------------------

(Filed Oct. 28, 2020)
Before OWEN, Chief Judge, and HAYNES and COSTA,
Circuit Judges.
PRISCILLA R. OWEN, Chief Judge:
Shelton Barnes, Michael Jones, Henry Evans,
Paula Jones, and Gregory Molden were convicted of
offenses related to Medicare fraud. We affirm.

App. 2
I
Dr. Shelton Barnes, Dr. Michael Jones, Dr. Henry
Evans, Paula Jones, and Dr. Gregory Molden were each
previously employed by Abide Home Care Services,
Inc., a home health agency owned by Lisa Crinel.
Barnes, Michael Jones, Evans, and Molden served as
“house doctors.” In that role, the physicians referred
patients to Abide for home health care services. Paula
Jones, Michael Jones’s wife, was one of Abide’s billers.
As a biller, Jones would process Medicare filings. She
would use the Kinnser billing system (Kinnser) to ensure that all appropriate documentation existed for
each bill. As part of Abide’s business model, it would
“provide home health services to qualified patients and
then bill Medicare accordingly.”
Medicare reimburses providers for home health
care services if a particular patient is (1) eligible for
Medicare and (2) meets certain requirements. Those
requirements include, inter alia, that the patient is
“ ‘homebound,’ under a certifying doctor’s care, and in
need of skilled services.”1 Certifying a patient for home
health care begins with an initial referral, which typically originates with the patient’s primary care physician.2 Next, “a nurse goes to the patient’s home to
assess if [he or] she is homebound, completing an
Outcome and Assessment Information Set [(OASIS)].”3
From the OASIS assessment, the nurse develops a
1
2
3

United States v. Ganji, 880 F.3d 760, 777 (5th Cir. 2018).
Id. at 764.
Id.

App. 3
plan of care on a form known as a “485” for the prescribing physician’s review. Only a physician can approve a 485 plan. Physicians are expected to review the
forms to ensure they are accurate. These forms, as well
as a face-to-face addendum certifying that the nurse
met with the patient, are then routed to Medicare.4
This process permits payment for one 60-day episode.
Patients can then be recertified for subsequent episodes.
Medicare determines how much will be paid for
each episode based, in part, on the patient’s diagnosis.
Each diagnosis has a corresponding code derived from
the International Statistical Classification of Diseases
and Related Health Problems 9th Revision (an ICD-9
code). Reimbursements are higher for some diagnoses
than others. So-called “case-mix diagnoses” such as
rheumatoid arthritis, cerebral lipidosis, and low vision,
receive higher payments than other, comparatively
simpler diagnoses. As a result, false or erroneous entries on the OASIS form can ultimately result in
higher Medicare reimbursements.
The government came to suspect that Abide was
committing health care fraud. Specifically, the government alleged that “Abide billed Medicare based on
plans of care that doctors authorized for medically unnecessary home health services.” According to the
government, several patients who had received home
health care from Abide did not, in fact, need such
services. Each physician had “approved [case-mix]
4

Id.

App. 4
diagnoses to patients on . . . 485s that were medically
unsupported.” Paula Jones had also participated in the
scheme. Through Kinnser, Abide employees were able
to predict how much Medicare would reimburse for a
particular episode of home health care. If the episode
did not meet Abide’s “break-even point,” Jones would
send “the files back to the case managers to see if they
could get the score up.” These and other actions “fraudulently inflated Medicare’s reimbursement to Abide.”
Relatedly, the government also came to suspect
that Abide was “pay[ing] doctors, directly or indirectly,
for referring patients.” The government alleged that
Crinel (the owner of Abide) had paid the physicians
for patient referrals. Some of these payments were
“disguised as compensation for services performed as
[medical directors]” for Abide. The government also
alleged that Paula Jones’s salary, which had doubled
during her time working for Abide, was based on her
husband’s referrals. This conduct, the government alleged, constituted a violation of 42 U.S.C. §§ 1320a7b(b)(1), (b)(2)—the anti-kickback statute.
Barnes, Michael Jones, Evans, Paula Jones, and
Molden were each charged with conspiracy to commit
health care fraud and conspiracy to violate the antikickback statute. Each physician was also charged
with several counts of substantive health care fraud.
Finally, Barnes was charged with obstructing a federal
audit in violation of 18 U.S.C. §§ 2 and 1516. According
to the government, upon learning he was under audit,
Barnes falsified documents to justify his fraudulent
certifications.

App. 5
At trial, Crinel, Wilneisha Jakes (Crinel’s daughter and an Abide employee), Rhonda Maberry (an
assistant manager at Abide), and Eleshia Williams
(Barnes’s biller) testified for the government. Dr. Lutz
also testified for the government. He evaluated the
medical records of several of Abide’s patients and
opined as to whether home health care was medically
necessary. The defendants presented several witnesses;
Evans also testified in his own defense. The jury convicted Barnes, Michael Jones, Paula Jones, and Molden
of conspiracy to commit health care fraud and conspiracy to violate the anti-kickback statute. Barnes, Evans,
Michael Jones, and Molden were each found guilty of
several counts of substantive health care fraud. The
jury also convicted Barnes of obstructing a federal audit. Thereafter, each was sentenced to a term of imprisonment. This appeal followed.
II
We first consider the issues raised by Shelton
Barnes.
A
Barnes challenges the sufficiency of the evidence supporting each of his convictions. “[P]reserved sufficiency-of-the-evidence challenges” are
reviewed de novo.5 Under that standard, “we review[ ]
5

United States v. Gibson, 875 F.3d 179, 185 (5th Cir. 2017)
(citing United States v. Davis, 735 F.3d 194, 198 (5th Cir. 2013)).

App. 6
the record to determine whether, considering the evidence and all reasonable inferences in the light most
favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt.”6
1
Barnes was convicted on both counts of conspiracy
identified in the indictment. Count 1 alleged that he
conspired to commit healthcare fraud, in violation of
18 U.S.C. §§ 1347 and 1349. Section 1347 punishes
“[w]hoever knowingly and willfully executes, or attempts to execute, a scheme or artifice . . . to defraud
any health care benefit program . . . in connection with
the delivery of or payment for health care benefits,
items, or services.”7 To convict on Count 1, the government was required to prove: “(1) two or more persons
made an agreement to commit health care fraud; (2)
the defendant knew the unlawful purpose of the agreement; and (3) the defendant joined in the agreement

6

Id. (alteration in original) (quoting United States v. VargasOcampo, 747 F.3d 299, 303 (5th Cir. 2014) (en banc)); see also
United States v. Grant, 683 F.3d 639, 642 (5th Cir. 2012) (“ ‘The
evidence need not exclude every reasonable hypothesis of innocence or be wholly inconsistent with every conclusion except
that of guilt,’ in order to be sufficient.” (quoting United States v.
Moreno, 185 F.3d 465, 471 (5th Cir. 1999))).
7
18 U.S.C. § 1347(a).

App. 7
willfully, that is, with the intent to further the unlawful purpose.”8
Count 2 alleged that Barnes conspired with others
to “knowingly and willfully solicit and receive . . . kickbacks and bribes . . . in return for referring individuals for” Medicare services in violation of 42 U.S.C.
§§ 1320a-7b(b)(1), (b)(2), and 18 U.S.C. § 371. As summarized in United States v. Gibson, the anti-kickback
statute “criminalizes the payment of any funds or benefits designed to encourage an individual to refer another party to a Medicare provider for services to be
paid for by the Medicare program.”9 To convict on
Count 2, the government was required to establish:
“(1) an agreement between two or more persons to
pursue [the] unlawful objective; (2) the defendant’s
knowledge of the unlawful objective and voluntary
agreement to join the conspiracy; and (3) an overt act
by one or more of the members of the conspiracy in furtherance of the objective of the conspiracy.”10
The sine qua non of a conspiracy is an agreement.11
We have previously recognized that “[a]greements
need not be spoken or formal.”12 “[T]he [g]overnment
8

Gibson, 875 F.3d at 185-86 (footnote omitted) (citing United
States v. Willett, 751 F.3d 335, 339 (5th Cir. 2014)).
9
Id. at 187 (quoting United States v. Miles, 360 F.3d 472, 479
(5th Cir. 2004)).
10
Id. at 187-88 (quoting United States v. Njoku, 737 F.3d 55,
64 (5th Cir. 2013)).
11
See United States v. Ganji, 880 F.3d 760, 767 (5th Cir.
2018).
12
Id.

App. 8
can use evidence of the conspirators’ concerted actions
to prove an agreement existed.”13 Nevertheless, “[p]roof
of an agreement to enter a conspiracy is not to be
lightly inferred.”14 “ ‘Mere similarity of conduct among
various persons and the fact that they have associated
with or are related to each other’ is insufficient to prove
an agreement.”15 “Conspirators do not enter into an
agreement by happenstance. . . .”16
On appeal, Barnes relies heavily on our previous
decision in United States v. Ganji in arguing that there
was insufficient evidence to convict him of either conspiracy. In Ganji, Elaine Davis, the owner of a home
health care agency, and Dr. Ganji, a physician associated with Davis’s agency, were charged and ultimately
convicted of conspiracy to commit health care fraud
and substantive health care fraud.17 We reversed on
sufficiency-of-the-evidence grounds.18 As to each conspiracy conviction, we concluded the government failed
to establish either individual entered into an agreement to commit health care fraud.19 Unlike “the vast
majority of concert of action cases,” the government
did not produce an “insider” who could testify as to
13

Id.
Id. (alteration in original) (quoting United States v. Johnson, 439 F.2d 885, 888 (5th Cir. 1971)).
15
Id. at 767-68 (quoting United States v. White, 569 F.2d 263,
268 (5th Cir. 1978)).
16
Id. at 768.
17
Id. at 764-66.
18
Id. at 778.
19
Id. at 773.
14

App. 9
either Dr. Ganji’s or Davis’s involvement in the alleged conspiracy.20 Moreover, “[t]he quality and probative strength of the [g]overnment’s ‘concerted action’
evidence in [Ganji fell] well short of the [requisite]
threshold.”21 As to the substantive health care fraud
convictions, we concluded “there [was] insufficient evidence to show that [either individual] knowingly executed a scheme to defraud Medicare.”22 According to
Barnes, “[t]he facts described [in Ganji] are practically
identical, or more than substantially so, to the facts
brought out at trial.” We disagree.
As to Count 1, Maberry testified to signing
Barnes’s name on 485s, and to certifying falsely that
patients were under Barnes’s care. The jury heard evidence that Barnes was aware of this conduct. Moreover, Crinel testified that Barnes was paid for patient
referrals, which established a potential motive for
Barnes’s conduct. Importantly, Crinel had also pleaded
guilty to conspiring with Barnes to commit health care
fraud. Finally, the government presented statistical evidence reflecting that Barnes billed for case-mix diagnoses with significantly greater frequency than other
providers in Louisiana and the country as a whole. As
the district court noted, the numbers are significantly
different such that they are “too large to have happened by chance.” Collectively, this evidence more than
sufficiently establishes the elements of conspiracy.
20
21
22

Id. at 771.
Id. at 770; see id. at 773.
Id. at 778 (emphasis added).

App. 10
Regarding Count 2, Wilneisha Jakes’s and Crinel’s
testimony provide sufficient evidence of a conspiracy to
violate the anti-kickback statute. During Jakes’s testimony, she admitted that: (1) Barnes was paid for patient referrals; (2) his employment agreement was
created merely to establish a paper trail; and (3) she
entered into an agreement with Barnes to pay him for
his referrals. Likewise, Crinel testified that Barnes
was being paid for patient referrals. As with Count 1,
because she pleaded guilty to conspiring with Barnes
to violate the anti-kickback statute, her testimony regarding Barnes’s role in the conspiracy was especially
probative.
Of course, Barnes’s case bears some similarities to
Ganji. But we strongly disagree with his assessment
that his case is “practically identical, or more than substantially so,” to Ganji. Perhaps the most significant
difference is the fact that this case is one of “the vast
majority of concert of action cases[ ] [in which] the
[g]overnment presents an insider with direct evidence
of the conspiratorial scheme.”23
2
Counts 3 through 17 each alleged a separate violation of 18 U.S.C. § 1347. Counts 3 through 7 concerned patient HaHa; Counts 8 through 10 concerned
patient KiSt; and Counts 11 through 17 concerned
patient ArGi.
23

Id. at 771.

App. 11
Barnes again relies on Ganji, and specifically this
court’s recognition that to convict a physician of violating 18 U.S.C. § 1347 the prosecution “must provide evidence that the accused doctor executed a fraudulent
scheme with knowledge that the patient was not homebound.”24 According to Barnes, his convictions should
be overturned because the government did not produce
one scintilla of evidence that Barnes “knew [HaHa,
KiSt, or ArGi were] not homebound.”25
Despite Barnes’s contentions, the government presented sufficient evidence that Barnes knew these patients were not home-health-care eligible. Maberry,
Barnes’s nurse practitioner, told him that not all of the
patients he certified as homebound were, in fact, homebound. Moreover, the substantial evidence presented
as to Counts 1 and 2 undermines Barnes’s argument.
Evidence of a financial incentive for home health care
referrals and statistical evidence probative of fraudulent conduct are circumstantial evidence of Barnes’s
knowledge.
Specific evidence relating to each patient reinforces this conclusion. As to patient HaHa, Maberry
testified that HaHa’s billings lacked appropriate supporting documentation. Dr. Lutz testified that HaHa
did not know Barnes and that several of HaHa’s diagnosis codes were “shuffled” during recertifications. As
to patient KiSt, Barnes lacked records for this patient,
and he never met with her. Maberry, who pleaded
24
25

Id. at 777 (emphasis added).
Id. at 778.

App. 12
guilty to conspiring with Barnes to commit Medicare
fraud regarding KiSt’s home health certification, testified that 485s had been pre-signed before visiting KiSt.
Lastly, as to patient ArGi, Dr. Lutz testified that
Barnes’s patient files for ArGi lacked the documentation that should have existed if ArGi had the conditions Barnes alleged ArGi had. Also, Maberry signed
Barnes’s signature on several of the relevant 485s
identified in the indictment. In the aggregate, this evidence is more than sufficient for a reasonable juror to
conclude that Barnes’s conduct was fraudulent.
3
We next consider Barnes’s conviction for obstructing a federal audit in violation of 18 U.S.C. §§ 2 and
1516. Section 1516 provides the following:
Whoever, with intent to deceive or defraud
the United States, endeavors to influence,
obstruct, or impede a Federal auditor in the
performance of official duties relating to a
person, entity, or program receiving in excess
of $100,000, directly or indirectly, from the
United States in any 1 year period under a
contract or subcontract, grant, or cooperative
agreement, . . . shall be fined under this title,
or imprisoned not more than 5 years, or both.26
On appeal, Barnes raises two arguments as to why his
conviction as to Count 47 should be reversed.

26

18 U.S.C. § 1516(a).

App. 13
Barnes’s first argument concerns § 1516’s jurisdictional element, which specifically requires that the
conduct in question be directed at “a Federal auditor in
the performance of official duties relating to a person,
entity, or program receiving in excess of $100,000, directly or indirectly, from the United States in any 1
year period.”27 Under his proposed interpretation of
the statute, § 1516 can only apply if he received “in excess of $100,000 . . . from the United States in any 1
year period.”28 Thus, because no such evidence was
adduced at trial, he is entitled to an acquittal. The
government disagrees and instead argues Barnes’s
conviction should be affirmed because Medicare received in excess of $100,000 from the United States.
Reviewing this question of statutory interpretation de novo, we are inclined to side with the government.29 Under a plain-text reading of the statute, it is
telling that an individual violates § 1516 when he or
she “endeavors to influence, obstruct, or impede a Federal auditor in the performance of official duties relating to a person, entity, or program receiving in excess
of $100,000 . . . from the United States.”30 In this case,
the audit was undoubtedly related to Medicare, a “program receiving in excess of $100,000 . . . from the

27

Id.
Id.
29
United States v. Ridgeway, 489 F.3d 732, 734 (5th Cir.
2007) (citing United States v. Phillips, 303 F.3d 548, 550 (5th Cir.
2002)).
30
18 U.S.C. § 1516(a) (emphasis added).
28

App. 14
United States.”31 Further, we are not convinced that
Barnes’s alternative interpretation represents a better
reading of the statute. Under his interpretation, the
amount of money received by an alleged violator would
often be the statute’s limiting criterion. Such a result
would inherently thwart Congress’s intentions when it
comes to enforcing the statute. We therefore decline to
adopt Barnes’s proposed reading of § 1516’s jurisdictional element. Because there was sufficient evidence
to establish § 1516’s jurisdictional element under the
interpretation we adopt today, we reject Barnes’s first
argument concerning Count 47.
Next, Barnes contends there was insufficient evidence he engaged in obstructive conduct. But the jury
heard evidence that Barnes received several letters
from Medicare indicating that he would not be paid for
certain Medicare billings because the billings lacked
the appropriate documentation. Thereafter, he gave
over fifty audit letters to Maberry, his nurse practitioner. He then informed her that they had “received
the audit, and in order for him to get paid[, they] had
to complete that audit for Medicare.” In response, Maberry and Eleshia Williams, Barnes’s biller, completed
paperwork in order to justify these billings. Some documents were falsified to do so. Both Maberry and Williams testified that Barnes was aware of these actions.
According to Maberry, Barnes had implied that they
should take such actions. Moreover, she testified that
she falsified, and Barnes signed, care plan log sheets
31

Id.

App. 15
in response to the audit. Williams noted that Barnes
had observed and tacitly approved of Maberry signing
his name on medical documentation as part of the audit.
We agree with the government that logical and
reasonable inferences from this evidence would enable
a reasonable juror to conclude that Barnes acted “with
intent to deceive or defraud the United States,”32 as required by § 1516(a), or that he acted “with the intent
to facilitate” the offense’s commission, as required by
§ 2.33
B
Barnes asserts that the prosecutor made improper
comments during closing arguments. During those arguments, Paula Jones’s attorney challenged the credibility of Dr. Lutz, the government’s expert witness.
Specifically, her attorney stated:
Dr. Lutz may not be going where his grandfather was going. His grandfather may go to
church, Dr. Lutz goes to Galatoire’s. There’s a
big difference. When I listen to him, it was almost like an aristocratic arrogance of saying,
okay, we have all these problems in New Orleans, but I’m going to be at Galatoire’s and I’m
going to write out a big prescription—Weight
32

Id.
See Rosemond v. United States, 572 U.S. 65, 70-71 (2014)
(quoting Cent. Bank of Denver, N.A. v. First Interstate Bank of
Denver, N.A., 511 U.S. 164, 181 (1994)).
33

App. 16
Watchers for everybody. That’s going to solve
all our problems, as he takes another sip of
his martini. That’s an aristocratic arrogance.
Never seen the patients, never go down to the
areas of the city that need it.
The reference to Galatoire’s, a restaurant in the
French Quarter, stemmed from Dr. Lutz’s testimony
during trial that he does not eat at Galatoire’s on Fridays during lunch because “[t]here’s too many attorneys” there.
The government responded to the defense’s comments during their rebuttal argument. The prosecutor
specifically stated:
He is not an elitist. He worked for the City of
New Orleans when these defendants, these
elite defendants probably weren’t out of medical school. He worked for the City of New
Orleans in home health for the inner city. So
that’s offensive that this man can’t go out and
have a martini at a place he said he did. Well,
he won’t because these defense attorneys are
there.
The defense objected to the remarks at a bench conference, but the court did not take any action. The court
did note during post-trial motions that such comments
were “improper.” However, it went on to state that no
action was necessary because “the jury was presented
with abundant evidence of [Barnes’s] guilt” and the
comments were but a small part of a long trial.

App. 17
On appeal, Barnes alleges the prosecutor’s comments were “offensive and inflammatory.” He argues
the comments invoked class-stereotypes by referring
to the defendants as elitist and impugned the integrity
of defense counsel. According to him, the comments
were “so wrong[ ] that speculation on whether it had an
impact on the jury need not be suggested.” We agree
the comments were improper but believe such comments did not affect Barnes’s substantial rights. We
therefore decline his request for a new trial.
We apply a two-step process when evaluating the
propriety of a prosecutor’s comments during closing arguments. First, this court “initially decide[s] whether
. . . the prosecutor made an improper remark.”34 “Second, ‘[i]f an improper remark was made, we must then
evaluate whether the remark affected the substantial
rights of the defendant.’ ”35 Courts consider “(1) the
magnitude of the prejudicial effect of the prosecutor’s
remark, (2) the efficacy of any cautionary instruction
by the judge, and (3) the strength of the evidence supporting the conviction.”36 De novo review applies to the
first inquiry.37 In contrast, “the question of whether . . .

34

United States v. McCann, 613 F.3d 486, 494 (5th Cir. 2010)
(quoting United States v. Gallardo-Trapero, 185 F.3d 307, 320
(5th Cir. 1999)).
35
Id. (alteration in original) (quoting Gallardo-Trapero, 185
F.3d at 320).
36
United States v. Bennett, 874 F.3d 236, 254 (5th Cir. 2017)
(quoting United States v. Weast, 811 F.3d 743, 752 (5th Cir. 2016)).
37
McCann, 613 F.3d at 494.

App. 18
the defendant’s substantial rights were affected [is reviewed] under the abuse of discretion standard.”38
As to the first part of the analysis, the district
court correctly held that the prosecutor’s comments
were improper. The prosecutor’s description of the
defendants as elitists was arguably in response to
the defense’s initial attacks against Dr. Lutz. But
even assuming that comment was appropriate, no
similar justification validates the prosecution’s comments aimed at defense counsel. Attacking defense
counsel was unwarranted, unprovoked, and irrelevant.
The district court therefore correctly concluded that
the prosecution’s remarks during rebuttal were improper.
Nevertheless, these comments did not affect
Barnes’s substantial rights. Viewed in context, the
comments were not overly prejudicial and were unlikely to inflame the passions of the jury.39 Moreover,
these comments were but a small part of a significant
trial. Admittedly, the judge did not provide a specific
curative instruction concerning the prosecutor’s comments. Yet the case against Barnes was strong. As the
district court aptly stated, “it strains credulity to argue
that this offhand comment—a few seconds in a fourweek trial—had a prejudicial impact on [Barnes’s] substantial rights.” We therefore decline Barnes’s request

38
39

2014).

Id.
See United States v. Phea, 755 F.3d 255, 267-68 (5th Cir.

App. 19
for a new trial as a result of the prosecutor’s improper
comments during closing arguments.
C
Barnes challenges the district court’s refusal to
admit patient consent forms into evidence. Dr. Lutz
testified as an expert for the government that several
patients treated by the physicians in this case “had no
business being in home health.” During Dr. Lutz’s testimony, Barnes sought to introduce consent forms
“signed by patients KiSt, HaHa[,] and ArGi in which
those patients acknowledge they are homebound.” The
district court refused to admit this evidence. It concluded that: (1) the forms constituted hearsay that was
inadmissible under Rule 803(4) (medical records exception) or Rule 807 (residual exception); (2) the forms
were inadmissible “under Rules 703 or 705, as Dr. Lutz
did not rely on the documents in forming his opinion,
and did not use the documents as underlying facts or
data;” and (3) the evidence was inadmissible even for
impeachment purposes because the forms “were not
prior inconsistent statements by Dr. Lutz.”
On appeal, Barnes contends these documents
were admissible hearsay and were admissible for the
purposes of impeaching Dr. Lutz’s testimony. We review “evidentiary rulings for abuse of discretion.”40 “A
district court abuses its discretion when its ruling is
40

United States v. Gluk, 831 F.3d 608, 613 (5th Cir. 2016)
(citing United States v. El-Mezain, 664 F.3d 467, 494 (5th Cir.
2011)).

App. 20
based on an erroneous view of the law or a clearly erroneous assessment of the evidence.”41 If the district
court did abuse its discretion, any resulting error is
“subject to harmless error review.”42 “A reversal will not
be warranted unless the defendant shows ‘that the district court’s ruling caused him substantial prejudice.’ ”43 Applying this framework, the district court did
not abuse its discretion when it refused to admit the
consent forms into evidence.
First, the forms were inadmissible as hearsay
evidence. The evidence did not qualify for admission
under Rule 803(4). That exception requires that the
statements be “made for—and [are] reasonably pertinent to—medical diagnosis or treatment.”44 Here,
though, the statements (i.e., the forms) address criteria
for home health care, not a specific medical diagnosis
or treatment. The forms were also inadmissible under
Rule 807 because they lacked indicia of reliability:45 As
the district court noted, “the nurses who signed the
forms [or provided them to the patients for their signature] either pleaded guilty to health care fraud or were
otherwise implicated in the fraud.”

41

Williams v. Manitowoc Cranes, L.L.C., 898 F.3d 607, 615
(5th Cir. 2018) (quoting Heinsohn v. Carabin & Shaw, P.C., 832
F.3d 224, 233 (5th Cir. 2016)).
42
Gluk, 831 F.3d at 613 (citing El-Mezain, 664 F.3d at 494).
43
El-Mezain, 664 F.3d at 494 (quoting United States v. Bishop,
264 F.3d 535, 546 (5th Cir. 2001)).
44
FED. R. EVID. 803(4).
45
See FED. R. EVID. 807.

App. 21
Second, the evidence was inadmissible under
Rules 703 and 705 because Dr. Lutz did not rely on
those forms in making his opinion.46 Finally, the forms
were inadmissible as prior inconsistent statements. As
the district court noted, the patients made the statements (i.e., filled out and signed the forms), not Dr.
Lutz. Because Dr. Lutz did not originally make the
statements, they could not be used to impeach his credibility.47
Having addressed and rejected each of Barnes’s
arguments as to why the patient consent forms were
admissible, we express no further opinion as to whether
the forms may have been admissible under any other
legal theory.48 Accordingly, the district court did not
abuse its discretion when it refused to admit the proffered consent forms into evidence.
D
At trial, Barnes sought to have several Medicare
regulations read to the jury as instructions. These
46

See FED. R. EVID. 703, 705.
See FED. R. EVID. 613(b) (“Extrinsic evidence of a witness’s
prior inconsistent statement is admissible only if the witness is
given an opportunity to explain or deny the statement and an adverse party is given an opportunity to examine the witness about
it, or if justice so requires.” (emphasis added)).
48
See Grogan v. Kumar, 873 F.3d 273, 277 (5th Cir. 2017)
(“[T]his court typically ‘will not consider evidence or arguments
that were not presented to the district court for its consideration. . . .’ ” (quoting Skotak v. Tenneco Resins, Inc., 953 F.2d 909,
915 (5th Cir. 1992))).
47

App. 22
regulations covered a variety of topics, including, inter
alia, (1) a list of services available to patients eligible
for home health care, (2) the certification requirements
necessary for a patient to receive home health care,
(3) permissible financial relationships between physicians and health care agencies, and (4) Medicare’s
guidance concerning the frequency of face-to-face
meetings between physicians and their home-health
patients.
The district court ultimately declined to read
those instructions to the jury. It was “particularly concerned about committing error by instructing the jury
on the meaning of the Medicare regulations in a criminal trial,” relying heavily on this court’s decision in
United States v. Christo.49 In Christo, the prosecution
presented “evidence and argument concerning violations of [a civil regulatory statute]”50 during a criminal
trial focusing on “misapplication of bank funds.”51 We
reversed the defendant’s convictions after noting the
prejudicial effect of “bootstrap[ping] a series of . . . civil
regulatory violation[s]” into a criminal trial.52 “The
trial court’s instructions and emphasis on [the civil
regulatory statute],” we noted, “served only to compound the error by improperly focusing the jury’s
attention to the prohibitions of [the civil regulatory
statute].”53 Concluding that Christo controlled, the
49
50
51
52
53

614 F.2d 486 (5th Cir. 1980).
Id. at 492.
Id. at 488.
Id. at 492.
Id.

App. 23
trial judge here refused to read Barnes’s requested instructions. Importantly, though, the substance of those
instructions was brought to the jury’s attention numerous times. The actual Medicare regulations upon which
the proposed instructions were based “were admitted
into evidence without objection and provided to the
jury.” The judge also permitted defense counsel to argue the substance of these instructions during closing
arguments.
On appeal, Barnes asserts the district court erred
when it refused to read the proffered instructions. According to him, “[j]ust having these complex regulations used and battered about during the trial, when
they formed the heart and soul of the defense, was not
adequate.” The judge, as a neutral and detached party,
should have provided the jury with guidance on these
regulations. Moreover, he argues the district court’s reliance on Christo was inappropriate. Unlike in Christo,
“the government [in this case was not] attempting to
use regulations to sustain its burden of proof.” Christo
is distinguishable, Barnes asserts, because in this
case the defense requested the instruction. Thus, in
Barnes’s estimation, the district court’s refusal to provide the requested instructions constitutes error.
There is no error in the district court’s refusal to
read the proffered instructions to the jury. “Whe[n], as
here, the defense requested a jury instruction and the
request was denied, we review the denial for abuse of

App. 24
discretion.”54 “A district court abuses its discretion by
failing to issue a defendant’s requested instruction if
the instruction (1) is substantively correct; (2) is not
substantially covered in the charge given to the jury;
and (3) concerns an important point in the trial so that
the failure to give it seriously impairs the defendant’s
ability to present effectively a particular defense.”55
We assume without deciding that the proffered instructions were “substantively correct” and “not substantially covered in the charge given to the jury.”56
Nevertheless, the refusal to read the instructions did
not impair Barnes’s “ability to present effectively a
particular defense.”57 As the district court outlined, the
jury was amply aware of the Medicare regulations and
their importance to this case. The district court also
properly relied on Christo. It is not difficult to imagine
a jury confusing the standards articulated in the Medicare regulations with the appropriate legal standard
in a criminal case. These risks are present irrespective
of whether the government or the defense requests
these types of instructions. We express no opinion
whether it would have constituted an abuse of discretion if the judge had actually read the proffered instruction at the defense’s behest. But given the wide
54

United States v. Bennett, 874 F.3d 236, 242 (5th Cir. 2017)
(quoting United States v. Bowen, 818 F.3d 179, 188 (5th Cir. 2016)
(per curiam)).
55
Id. at 242-43 (internal quotation marks omitted) (quoting
United States v. Sheridan, 838 F.3d 671, 672-73 (5th Cir. 2016)).
56
Id. at 243 (quoting Sheridan, 838 F.3d at 673).
57
Id. (quoting Sheridan, 838 F.3d at 673).

App. 25
latitude district courts have to effectively preside over
criminal trials, we conclude the district court did not
abuse its discretion in this case when it refused to read
Barnes’s proffered instructions to the jury.
III
Michael Jones contends there was insufficient evidence to convict him of conspiracy to commit health
care fraud (Count 1), conspiracy to violate the antikickback statute (Count 2), and seven counts of substantive health care fraud (Counts 18 and 22 through
27). Count 18 alleged fraud concerning patient ArGi;
Counts 22 through 26 concerned patient LiSc; and
Count 27 concerned patient EvLa.
A
Jones asserts many of the same arguments as his
co-defendants and likewise relies heavily on Ganji. As
to Count 1, the circumstantial evidence offered against
Jones was sufficient to convict him of conspiracy to
commit health care fraud. Like many of the other defendants, Jones had a financial incentive to refer patients to home health care. From this evidence, the jury
could reasonably infer that Jones had a motive to falsify health care certifications. Statistical evidence
reflected that Jones diagnosed patients with certain
conditions significantly more often than other doctors.
The jury also heard substantial evidence that Jones
himself certified patients for home health care even
when those patients were ineligible for such services.

App. 26
Finally, Crinel pleaded guilty to conspiring with Jones
to commit health care fraud. Together, this evidence is
far stronger than that presented in Ganji; it is more
than enough to find Jones guilty of conspiracy to commit health care fraud.
Similarly, the record contains ample evidence that
Jones agreed to violate the anti-kickback statute.
Crinel’s testimony alone suffices. According to Crinel,
Jones told her that if she increased Paula Jones’s salary, “he would send patients to substantiate her salary
being increased.” From this testimony, the jury was
more than justified in finding Jones guilty of conspiracy to violate the anti-kickback statute.
B
As to whether there was insufficient evidence to
find him guilty on Counts 18 and 22 through 27, Jones
does not appear to contest that the patient named in
each count was ineligible for home health services. Instead, he contends there was insufficient evidence he
knew the patients were ineligible when he certified
them for such services, thereby preventing him from
being convicted of health care fraud.
However, the previously addressed statistical evidence and his financial motive to falsify certifications
are both circumstantial proof of knowledge. Jones likewise told one of his employees that Crinel was not receiving the number of patients she expected and that
the employee needed “to schedule more health fairs” in
order “[t]o find patients.” This evidence suggests that

App. 27
Jones’s unnecessary referrals were done with intent to
deceive.58 Considered together, this evidence is sufficient for a jury to conclude that Jones’s actions were
fraudulent.
IV
Henry Evans was convicted of five counts of substantive health care fraud. Count 31 concerned patient
JoWi and Counts 43 through 46 concerned patient
MaGr. He challenges his convictions and his sentence.
A
Whether there was sufficient evidence to convict
Evans as to Count 31 of the indictment is complicated
by the fact that both Evans and the government confused the true identity of patient JoWi. In 2009, Evans
had originally treated a patient named JoWi (JoWi1).
In 2013, he was asked to certify a different patient with
the same first and last name as JoWi1 for home health
care (JoWi2). Evans did so without meeting her. According to his trial testimony, he had certified JoWi2
for home health care under the mistaken belief that
she was in fact JoWi1.
During the investigation of this case, the case agent
discovered the 2013 JoWi2 home health certification.
58

See United States v. Gibson, 875 F.3d 179, 186 (5th Cir.
2017) (indicating that a persistent focus on the number of patients
being referred for health care services can be indicative of fraudulent intent).

App. 28
The case agent mistakenly believed that JoWi2 and
JoWi1 were one in the same and that Evans had certified JoWi1 for home health care when he had not seen
her since 2009. As a result, the government alleged the
following in the indictment:
Medicare Beneficiary JoWi: It was further
part of the scheme to defraud that Medicare
beneficiary JoWi began home health at Abide
after she was referred by her treating physician to home health for wound care after
a hospitalization. Beginning in July 2013,
E[vans] began certifying JoWi for home
health at Abide, even though the last documented visit E[vans] had with JoWi was in
October 2009. E[vans] certified JoWi for at
least two (2) additional episodes of home
health at Abide between July 2013 and February 2014.
At trial, the case agent attempted to clarify the issue
for the jury. Evans reinforced his understanding of
events when he testified in his own defense.
On appeal, Evans contends the aforementioned
confusion led to either an impermissible constructive
amendment of the indictment or a sufficiency-of-theevidence issue.
1
Evans argues that the indictment’s confusion between JoWi1 and JoWi2 resulted in a constructive
amendment of the indictment in violation of the Fifth

App. 29
Amendment of the Constitution. But Evans only fully
addresses the merits of this argument in his reply
brief. It is well settled in this circuit that “a defendant
waives an issue if he fails to adequately brief it.”59 We
consequently do not consider this issue.
2
Evans contends that the confusion about JoWi resulted in a sufficiency-of-the-evidence issue. Evans argues that if Count 31 referenced JoWi1, there was no
evidence he ever fraudulently certified her for home
health care. Thus, he could not be convicted on that
count. He also argues that the same result holds if
Count 31 referenced JoWi2 because there was insufficient evidence to prove the conduct was criminal. He
argues there was no evidence showing that JoWi2 was
ineligible for home health care or that his certification
of her for home health care was done with the requisite
fraudulent intent. Additionally, Evans argues his “mistake of fact” defense—namely, that he mistook JoWi1
for JoWi2—prevents him from being convicted. Evans
is not entitled to relief under either premise.
As an initial matter, we note that we need not and
therefore do not address whether there was sufficient
evidence introduced as to Count 31 if that count was
intended to refer to JoWi1. The indictment can be read
to suggest Count 31 intended to reference JoWi1. But
any resulting confusion in the indictment as to the
59

2001).

See United States v. Martinez, 263 F.3d 436, 438 (5th Cir.

App. 30
“true identity” of JoWi was eliminated at trial once
the government’s case agent and Evans himself testified. At that point, all parties involved—including the
jury—understood Count 31 concerned JoWi2, and specifically, that the issue was whether the certification
pertaining to that patient constituted fraud. Because
the jury in this case was amply aware that Count 31
turned on whether the JoWi2 billing was fraudulent,
we need only consider whether sufficient evidence was
offered to support that count.
The jury heard evidence that Evans twice certified
JoWi2 as homebound, under his care, and in need of
skilled services even though he had never met her.
There was evidence suggesting that certification was
done with fraudulent intent. The circumstances surrounding the JoWi certification were, to say the least,
suspicious. Evans’s defense to this claim amounted to
a self-serving admission that he mistakenly believed
JoWi2 to be JoWi1—a patient he had not seen or treated
in nearly five years. The jury was entitled to judge Evans’s veracity and to reach the opposite conclusion.
Moreover, the inference of fraud that arises from the
suspicious circumstances surrounding JoWi’s certification becomes only stronger when one considers the ample evidence offered at trial that Evans had knowingly
and falsely certified another patient, MaGr, as homebound. Upon collectively viewing this evidence, “it was
not unreasonable for the jury to discredit Evans’[s]
self-serving testimony, draw rational inferences from
[his] actions, and find him guilty [on Count 31].” Contrary to Evans’s arguments, the record contained

App. 31
sufficient evidence to establish each element of the
charged offense.
B
For Counts 43 through 46, the indictment specifically alleged that Evans fraudulently billed Medicare
for two episodes of home health care, the first episode
beginning on April 1, 2012 and the second on November 27, 2012. The Medicare Part A and Medicare Part
B billings for each of those episodes constituted the
four relevant counts. As to why these billings were
fraudulent, the indictment alleged: (1) “Evans falsely
certified [diagnosis codes] on MaGr’s 485s that were
not medically supported in his treatment of MaGr;”
(2) Evans certified MaGr for two episodes of home
health care even though she did not qualify for home
health care; and (3) Evans billed Medicare for care
plan oversight of patients in home health care for 30
minutes or more each month despite the fact that he
did not provide the requisite services.
Importantly, the theories of fraud identified in the
indictment are merely theories as to why each billing
constituted fraud. When evaluating the sufficiency of
the evidence, we are concerned with the “essential elements of the crime.”60 Thus, on appeal, Evans must

60

Gibson, 875 F.3d at 185 (emphasis added) (quoting United
States v. Vargas-Ocampo, 747 F.3d 299, 303 (5th Cir. 2014) (en
banc)).

App. 32
demonstrate insufficient evidence of each of these
three allegations in order to merit a reversal.
The jury heard evidence demonstrating that, despite Evans’s certifications to the contrary, MaGr was
ineligible for home health care. Dr. Lutz provided testimony that MaGr “didn’t seem to have any trouble
getting around.” Dr. Lutz also noted that there was no
“indication in any medical record that supports [classifying MaGr as] homebound.” Dr. Lutz stated that
MaGr was certified for thirty-two episodes of care. He
conceded that MaGr may have qualified for services at
some point. Nevertheless, she did not need skilled
nursing services continuously for that period. Coupled
with the fact that Evans had a financial interest in
home health referrals, there was sufficient evidence to
establish that the two Medicare Part A billings and
two Medicare Part B billings identified in Counts 43
through 46 constituted fraud.
C
Evans asserts that the district court erred when it
allowed Dr. Lutz to testify as an expert witness. Dr.
Lutz testified on behalf of the government as “an expert in the field of internal medicine and the medical
necessity of home health services.” Out of the presence
of the jury, the government presented Dr. Lutz’s qualifications to the court. The prosecution elicited, inter
alia, that Dr. Lutz: (1) received his medical doctorate
from Tulane University School of Medicine and a master’s degree in public health from Tulane University

App. 33
School of Public Health and Tropical Medicine; (2) previously served as the Director of Health for the City of
New Orleans; (3) received numerous awards throughout his career; and (4) had previously taught at Tulane
University. The defense challenged Dr. Lutz’s qualifications by eliciting, inter alia, that (1) he had never
before testified “regarding the medical necessity [of ]
home health services;” (2) he had “never studied home
health;” and (3) that Dr. Lutz had never seen several of
the patients about whom he was called upon to testify.
The judge qualified Dr. Lutz as an expert.
Dr. Lutz testified on a variety of subjects. He provided insight into the various medical conditions identified in each patient’s file, pointed out apparent
contradictions between a physician’s proposed treatment plan and the patient’s complaints, and addressed
whether a patient needed skilled nursing services. Dr.
Lutz also testified that the patients identified in the
indictment “may have needed home health for short
periods of time, but none of them needed it for the continuous periods of time that [they] were consistently
certified and recertified for.” He was subject to vigorous
cross-examination by defense counsel.
On appeal, Evans contends that the admission of
Dr. Lutz’s testimony constituted error. Evans’s primary
contention is that “Dr. Lutz’s testimony . . . [was] not
based on the ‘reliable principles and methods’ relevant
to this case—the Medicare regulations.” He specifically
points to a bench conference in which counsel for the
government acknowledged that (1) Dr. Lutz was not
asked “anything about the regulations” during direct

App. 34
examination and (2) knowledge of the regulations was
“out of [Dr. Lutz’s] experience.” Evans notes that the
district court acknowledged that Dr. Lutz was not qualified to speak about the relevant regulations. Addressing Dr. Lutz’s testimony, the court noted the following:
But he hasn’t testified—all he—he has said in
his opinion as a doctor making a decision
about whether someone needs home health
care services, that that would have an impact
on his thoughts about whether they needed it.
Now, whether that technically under the Medicare regulations affects the determination, I
don’t think this witness is qualified to testify
about that.
Evans argues that “[t]he district court’s statement is
remarkable, given that Dr. Lutz had just finished two
days of testimony as the [g]overnment’s ‘expert,’ [during which] he stated definitively that in his expert
opinion the eight patients named in the indictment
were not ‘homebound.’ ”
Evans also alleges Dr. Lutz had a “highly flawed
view of home health care.” Evans points to transcript
excerpts in which Dr. Lutz acknowledges that his definition of “homebound” differs from Medicare’s:
My definition—or my thinking of homebound
is when somebody has an illness where they
literally can’t get out of the house without doing an ambulance or something, or where it
takes an army or a village or something to get
them out. I think that the—I think that the
Medicare definition that you’re talking about

App. 35
in Chapter 7 is liberal and allows home health
care to a larger number of people. . . .
This testimony is concerning, Evans argues, because
he “was being tried for fraudulently violating the Medicare regulations[,] not violating Dr. Lutz’s personal
definition of ‘homebound.’ ” He alleges that “an opinion
divorced from [Medicare’s] regulation[s] is unreliable
and therefore, inadmissible.” The district court’s refusal to read the applicable Medicare regulations to
the jury, Evans contends, “compounded” the error created by admitting Dr. Lutz’s testimony.
When evaluating the propriety of expert testimony, we turn to the Federal Rules of Evidence, which
dictate the admission of expert testimony in federal
trials. Under Rule 702, “[a] witness who is qualified as
an expert by knowledge, skill, experience, training, or
education may testify in the form of an opinion or otherwise if:” (1) the testimony is helpful to the trier of
fact, (2) “the testimony is based on sufficient facts or
data,” (3) “the testimony is the product of reliable principles and methods,” and (4) “the expert has reliably
applied the principles and methods to the facts of the
case.”61 Thus, “[e]xpert testimony is admissible only if
it is both relevant and reliable.”62

61

FED. R. EVID. 702.
United States v. Hodge, 933 F.3d 468, 477 (5th Cir. 2019)
(quoting Pipitone v. Biomatrix, Inc., 288 F.3d 239, 244 (5th Cir.
2002)).
62

App. 36
“A trial court’s decision to admit expert evidence is
reviewed for abuse of discretion.”63 As a general matter,
district courts are afforded “wide latitude” when it
comes to the admissibility of expert testimony.64 Thus,
this court will only disturb the district court’s decision
to admit expert testimony if the decision was “manifestly erroneous.”65 “A manifest error is one that ‘is
plain and indisputable, and that amounts to a complete disregard of the controlling law.’ ”66 Even if this
court concludes the district court did err when it admitted expert testimony, this court will not reverse a
defendant’s conviction if the error was harmless.67
Here, the district court’s decision to admit Dr.
Lutz’s testimony did not constitute an abuse of discretion. Evans’s contentions on appeal turn on the scope
of Dr. Lutz’s testimony. As previously stated, Dr. Lutz
was allowed to offer his opinions as “an expert in the
field of internal medicine and the medical necessity of
home health services.” Within those parameters, Dr.
Lutz was qualified to testify about a variety of topics.
After reviewing a relevant patient’s medical records,
63

Puga v. RCX Sols., Inc., 922 F.3d 285, 293 (5th Cir. 2019)
(citing Knight v. Kirby Inland Marine Inc., 482 F.3d 347, 351 (5th
Cir. 2007)).
64
Id. (quoting Watkins v. Telsmith, Inc., 121 F.3d 984, 988
(5th Cir. 1997)).
65
Id. (quoting Watkins, 121 F.3d at 988).
66
Id. (quoting Guy v. Crown Equip. Corp., 394 F.3d 320, 325
(5th Cir. 2004)).
67
United States v. Wen Chyu Liu, 716 F.3d 159, 167 (5th Cir.
2013) (citing Kanida v. Gulf Coast Med. Pers. LP, 363 F.3d 568,
581 (5th Cir. 2004)).

App. 37
he was capable of (1) defining medical terminology,
(2) identifying apparent contradictions between a physician’s treatment plan and a patient’s complaints,
(3) opining as to whether a patient needed skilled nursing care, and (4) analyzing whether a patient’s medical
file supported his or her physician’s conclusion that he
or she suffered from a particular condition. A medical
doctor with Dr. Lutz’s experience can answer questions
about these topics after reviewing an individual patient’s medical records. The district court did not abuse
its discretion to the extent it permitted Dr. Lutz to testify about these subjects.
Whether Dr. Lutz was qualified to testify about the
“medical necessity of home health services” is a more
difficult question. Although the record is not entirely
clear, the district court appears to have drawn a distinction between “the medical necessity of home health
services” and whether the patient qualified for home
health care under Medicare. For example, the district
court noted the following during a bench conference:
So [Dr. Lutz] was qualified as an expert in
internal medicine and the medical necessity
of home health services, which I interpreted
to mean this was for—and his testimony
was more about, would this—does this person need someone to come to their home?
Would it be good for them for someone to
come to their home as opposed to them going
to the doctor’s office? But he was not, he was
not qualified as an expert in Medicare regulations and he wasn’t questioned about that.

App. 38
The district court ruled that Dr. Lutz could offer
his opinion as a practitioner as to whether a particular
patient needed home health care. In contrast, Dr. Lutz
could not testify about whether a particular patient
qualified for home health care under Medicare.
Allowing Dr. Lutz to testify about whether he believed a patient was homebound arguably may have
injected confusion at trial. Evans correctly notes that
“whether a patient is ‘homebound[ ]’ . . . is a medicolegal determination.” To the extent that the Medicare
regulations provide guidance as to which patients
qualify as homebound, it is akin to a term of art. But
the word also has meaning outside of these parameters.
At numerous times throughout Dr. Lutz’s testimony, Dr. Lutz noted that certain patients were not
homebound. But, for many of these occasions, Dr. Lutz
failed to clarify whether his determination was based
on his own definition of homebound or on Medicare’s.
Dr. Lutz’s testimony as to his comparatively conservative view of home health care’s requirements only
served to further complicate the matter. For borderline
cases, there thus existed a very real possibility that a
patient would have qualified for home health care under Medicare while also not being homebound under
Dr. Lutz’s standard. In these instances, Dr. Lutz’s determinations as to the homebound status of these patients could have, at a minimum, confused the jury. At
worst, his determinations could have misled them.
Nevertheless, the fact that Dr. Lutz’s determinations

App. 39
could have confused or potentially misled the jury fails
to amount to an abuse of discretion by the trial court.
The fact that some of Dr. Lutz’s testimony may
have been potentially misleading or confusing comes
close, but ultimately does not amount to a “plain and
indisputable” error.68 Nor can we conclude it rises to
the level of “a complete disregard of the controlling
law.”69 We are certainly troubled by some aspects of
Dr. Lutz’s testimony. Nevertheless, we cannot conclude
these aspects of Dr. Lutz’s testimony amounted to
manifest error.70 Indeed, despite challenging Dr. Lutz’s
qualifications, defense counsel did not object to specific
questions eliciting, during direct examination, Dr.
Lutz’s ambiguous assessment of patients’ homebound
status and consequent need for home health services.
Instead, counsel’s effective cross-examination resolved
these ambiguities and clearly demonstrated for the
jury that Dr. Lutz’s determinations were based on his
own, more conservative view of which patients were in
fact “homebound.”71 Further, the “presentation of contrary evidence[ ] and careful instruction on the burden
of proof ” were other available means of adequately

68

Puga, 922 F.3d at 293 (quoting Guy, 394 F.3d at 325).
Id. (quoting Guy, 394 F.3d at 325).
70
See id.
71
See Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579,
596 (1993) (noting that “[v]igorous cross-examination[ is one of ]
the traditional and appropriate means of attacking shaky but
admissible evidence” (citing Rock v. Arkansas, 483 U.S. 44, 61
(1987))).
69

App. 40
addressing any confusion that resulted from Dr. Lutz’s
testimony.72
D
Evans argues that the district court procedurally
and substantively erred in imposing his sentence. His
sentence turned largely on the amount of loss resulting
from his fraudulent conduct.73 During the intervening
16 months between Evans’s conviction and sentencing,
both Evans and the government presented each of
their proposed loss calculations to the court. Four days
prior to sentencing, Evans requested permission to
cross examine a government witness as to the loss calculation and to present his own expert testimony concerning his proposed calculation at sentencing. The
district court denied his request, noting that “evidence
relevant to the loss allocation had been presented at
the trial, that the parties have had the opportunity to
do extensive briefing on the issue, and that, as a result,
no live testimony will be allowed at the sentencing
hearing.” The court permitted, however, “Evans to proffer his own expert’s testimony about loss calculations
on the record at the conclusion of the hearing.” Evans
filed a motion to reconsider two days before sentencing.
He stressed that he had been prohibited “from putting
on ‘evidence regarding the admission of worthy patients into home health care’ or ‘evidence of specific
72

Id. at 596 (citing Rock, 483 U.S. at 61).
See U.S. SENT’G GUIDELINES MANUAL § 2B1.1(b)(1) (U.S.
SENT’G COMM’N 2016).
73

App. 41
instances of uncharged proper Medicare billing[s]’ during the trial.” Thus, in his estimation, not all of the
“evidence relevant to the loss allocation had been presented at the trial.” Nevertheless, the district court refused to reconsider its original ruling.
At oral sentencing, the district court first defined
what it considered to be each physician’s relevant
conduct under section 1B1.3 of the Guidelines. The defendants collectively had engaged in jointly undertaken criminal activity. But the district court held that
“the scope of [each physician’s] jointly undertaken
criminal activity encompassed only the fraudulent conduct relating to each defendant[’s] own acts and patients.” Next, the court found that the actual loss
resulting from Evans’s scheme exceeded his intended
loss; thus, actual loss would be used to calculate his
advisory range. It then determined that actual loss in
this case included “all Medicare payments made to
both Abide and [Evans] for all of [Evans’s] patients.”
Under this framework, actual loss included not only
Evans’s fraudulent billings, but some legitimate
billings as well. The court cited United States v. Hebron, however, which held that “whe[n] the government
has shown that the fraud was so extensive and pervasive that separating legitimate benefits from fraudulent ones is not reasonably practicable, the burden
shifts to the defendant to make a showing that particular amounts are legitimate.”74 Here, the court concluded that the fraud was pervasive and Evans had
74

684 F.3d 554, 563 (5th Cir. 2012).

App. 42
failed to produce evidence demonstrating which bills
were legitimate and which were fraudulent. Subsequently, the court found that the actual loss resulting
from Evans’s offense totaled $1,262,043.
1
Evans first contends that the district court’s “refusal to hold an evidentiary hearing on [the question
of loss] violated [his] [d]ue [p]rocess rights.” According
to Evans, an evidentiary hearing would have allowed
him to “put forth evidence of both legitimate billings
and legitimately rendered services [that could have
been] deducted from the total loss amount.” To buttress
his argument, he points to the apparent contradiction
between the district court concluding Evans failed to
produce evidence of legitimate billings and legitimately rendered services on the one hand, and, on the
other hand, the district court’s refusal to permit an evidentiary hearing at which such evidence could have
been presented.
Evans’s contention requires us to look to the commentary to section 6A1.3 of the Guidelines, which provides guidance as to the appropriate procedures when
facts impacting sentencing are in dispute.75 It instructs that “[w]hen a dispute exists about any factor important to the sentencing determination, the
court must ensure that the parties have an adequate

75

U.S. SENT’G GUIDELINES MANUAL § 6A1.3 cmt. (U.S. SENT’G
COMM’N 2016).

App. 43
opportunity to present relevant information.”76 “Written statements of counsel or affidavits of witnesses
may be adequate under many circumstances.”77 The
commentary further provides that “[a]n evidentiary
hearing may sometimes be the only reliable way to resolve disputed issues.”78 In this circuit, a district court’s
refusal to hold an evidentiary hearing is reviewed for
an abuse of discretion.79 “[W]e have recognized that
there is no abuse of discretion when a defendant has
an opportunity to review the PSR and submit formal
objections to it.”80
Here, the district court did not abuse its discretion when it refused Evans’s request for an evidentiary hearing. Evans had ample opportunity prior to
sentencing to present evidence relevant to the loss
calculation. Affidavits and statements by counsel
are but two examples.81 Evans was given the opportunity to proffer his expert’s testimony about the loss
76
77

Id.
Id. (citing United States v. Ibanez, 924 F.2d 427 (2d Cir.

1991)).
78
79

Id. (collecting cases).
United States v. Henderson, 19 F.3d 917, 927 (5th Cir.

1994).
80

United States v. Tuma, 738 F.3d 681, 693 (5th Cir. 2013)
(citing United States v. Patten, 40 F.3d 774, 777 (5th Cir. 1994)
(per curiam)).
81
See Henderson, 19 F.3d at 927 (noting that the defendant’s
“due process rights were protected adequately” because “[h]e
could have filed affidavits and other exhibits in support of ” any
formal objections he filed to the PSR and that “[a]t the sentencing
hearing, [he] presented several exhibits and objected to some of
the exhibits proffered by the government”).

App. 44
calculations at the end of the hearing. It is ultimately
the district court that must make the factual determinations relevant for sentencing purposes.82 The district
court’s decision that an evidentiary hearing was unnecessary should be given considerable deference by
this court.83 Here, its decision to not take live testimony prior to sentencing did not amount to an abuse
of discretion based on this record.
2
Next, Evans contends the methodology employed
by the district court to calculate actual loss in this case
was flawed. He raises three sub-arguments.
a
First, Evans challenges the district court’s decision to apply Hebron’s burden-shifting framework.84
Specifically, he contends “there was no basis for the
court’s conclusion that ‘the fraud in this case was pervasive and difficult to detect,’ ” thereby there was no
basis to shift the burden to him to demonstrate which,
if any, billings were legitimate. He notes initially
that this circuit has not yet articulated which standard of review applies to a court’s determination that a
82

See United States v. Nava, 624 F.3d 226, 230-31 (5th Cir.
2010); see also U.S. SENT’G GUIDELINES MANUAL § 6A1.3(a) (U.S.
SENT’G COMM’N 2016).
83
Henderson, 19 F.3d at 927.
84
See United States v. Hebron, 684 F.3d 554, 562-63 (5th Cir.
2012).

App. 45
particular fraud is pervasive.85 Because “this determination constitutes a ‘method’ of determining the loss
amount,” however, he argues de novo review should
apply. As to the merits of his contention, he points to
the fact that he “was acquitted of both conspiracy
charges[ ] and convicted only of fraud with regard to
three episodes of care.” Moreover, he notes that the government failed to offer any evidence of fraud relating
to treatment of patients not identified in the indictment. “Consequently,” he argues, “there was no basis
for the court’s conclusion that ‘the fraud in this case
was pervasive and difficult to detect.’ ” To the extent
Abide may have been engaged in a pervasive fraud
with other physicians, “there was no such showing
with regard to [Evans].”
We conclude that clear-error review is the appropriate standard. Admittedly, the standard of review for
loss determinations is somewhat complicated. We “consider [de novo] how the [sentencing] court calculated
the loss, because that is an application of the [G]uidelines, which is a question of law.”86 “[Clear-error] review applies to the background factual findings that
determine whether . . . a particular method is appropriate.”87 If we affirm the district court’s methodology
85

See United States v. Ezukanma, 756 F. App’x 360, 372 (5th
Cir. 2018) (per curiam).
86
United States v. Klein, 543 F.3d 206, 214 (5th Cir. 2008)
(emphasis added) (citing United States v. Saacks, 131 F.3d 540,
542-43 (5th Cir. 1997)).
87
United States v. Isiwele, 635 F.3d 196, 202 (5th Cir. 2011)
(citing United States v. Harris, 597 F.3d 242, 251 n.9 (5th Cir.
2010)).

App. 46
under this framework, we then review the application
of the methodology to the facts of the particular case
for clear error.88
With those standards in mind, one can plausibly
categorize Hebron’s burden-shifting framework as a
“method” of determining actual loss, which would be
subject to de novo review. But we believe it is more appropriate to define a district court’s “pervasiveness determination” as a background factual finding that
informs the ultimate methodology employed by the
court. After all, the district court must first determine that a fraud is pervasive before invoking the
procedures outlines in Hebron.89 We therefore review
Evans’s first argument, which concerns a factual determination by the district court, for clear error.
Under that standard, we agree with the district
court that Evans’s fraud was pervasive. The statistical
evidence presented during trial concerning case-mix
diagnoses is persuasive. The case-mix diagnoses codes
were “used to increase [Abide’s] Medicare[ ] reimbursement[s].” Dr. Solanky, a government witness, provided
statistical evidence regarding seven of the codes. Dr.
Solanky’s testimony indicated that a greater percentage of Evans’s patients had been diagnosed with each
of those diagnostic codes than other providers in Louisiana. For six of the diagnostic codes, the disparity was
statistically significant, meaning they did not occur “by
88

See United States v. Cooper, 274 F.3d 230, 238 (5th Cir.

2001).
89

Hebron, 684 F.3d at 563.

App. 47
. . . chance.” In light of this evidence, the district court’s
conclusion that Evans’s fraud was pervasive is more
than plausible.90 We will not disturb the district court’s
decision to apply Hebron’s burden-shifting framework
in this case.
b
Second, Evans argues the district court failed
to make the requisite findings that he engaged in a
conspiracy with Abide. He relies on United States v.
Jimenez, an unpublished case, to support his argument.91 There, the defendant had been found guilty
of conspiracy to possess with intent to distribute
marijuana.92 At sentencing, the district court determined that the defendant’s “jointly-conducted activity”
extended to a separate drug transaction involving cocaine.93 This court vacated and remanded for resentencing “[b]ecause the record reflect[ed] no explicit
finding regarding whether the distribution of cocaine
was within the scope of the criminal activity that [the
defendant] agreed to undertake.”94

90

See Cooper, 274 F.3d at 238 (citing United States v. PuigInfante, 19 F.3d 929, 942 (5th Cir. 1994)) (“A factual finding is not
clearly erroneous if it is plausible in light of the record read as a
whole.”).
91
77 F. App’x 755 (5th Cir. 2003) (summary calendar).
92
Id. at 756.
93
Id. at 757-58.
94
Id. at 760.

App. 48
Evans argues that if the district court wanted to
hold him liable for Abide’s fraudulent acts, the court
must first specifically find that those acts were “(i) within
the scope of the jointly undertaken criminal activity,
(ii) in furtherance of that criminal activity, and (iii) reasonably foreseeable in connection with that criminal
activity.”95 He asserts that “the district court only addressed the ‘scope’ of [his] relevant conduct, which it
defined as ‘fraudulent conduct relating to [Evans’s]
own acts and . . . patients.’ ” Without addressing the remaining two requirements, Evans contends, the district court could not hold him liable for anything other
than his own actions, actions which included nothing
more than “the amount [Medicare] paid for JoWi and
MaGr in the counts of conviction.”
Ultimately, however, Evans’s argument is without
merit. Admittedly, the sentencing transcript does suggest that the district court only directly addressed section 1B1.3(a)(1)(B)’s first requirement, namely whether
Abide’s conduct was “within the scope of the jointly undertaken criminal activity.”96 It noted, “[t]he [c]ourt
finds as a matter of fact that the scope of Barnes, Evans, Michael Jones, and . . . Molden’s jointly undertaken
criminal activity encompassed only the fraudulent conduct relating to each defendant[’s] own acts and patients.” The court did not appear to have expressly
addressed the remaining two requirements.

95

U.S. SENT’G GUIDELINES MANUAL § 1B1.3(a)(1)(B) (U.S.
SENT’G COMM’N 2016).
96
Id. § 1B1.3(a)(1)(B)(i).

App. 49
Nevertheless, the district court implicitly recognized that the remaining two requirements were satisfied. The district court went to great pains to follow
Fifth Circuit precedent during sentencing. The court
noted it was required to expressly find each of section
1B1.3(a)(1)(B)’s requirements. It then outlined why
the government’s articulation of each defendant’s relevant conduct—namely, that each physician was in a
conspiracy not merely with Abide, but with each of the
other physicians—did not satisfy those requirements.
Thereafter, the district held that “the scope of [each
physician’s] jointly undertaken criminal activity encompassed only the fraudulent conduct relating to
each defendant[’s] own acts and patients.” Viewed in
context, the record thus suggests the district court believed the remaining two requirements were met as
well. That is, by first outlining the requirements, then
rejecting the government’s articulation of each defendant’s jointly undertaken criminal activity, and finally
concluding that a different articulation was more appropriate, the judge implicitly recognized that its own
articulation met section 1B1.3(a)(1)(B)’s requirements.
Moreover, as this court noted in United States v.
Puig-Infante, district courts are permitted “to make
implicit findings by adopting the PSR.”97 Here, the district court adopted the PSR’s factual findings, which
thoroughly described the overall conspiracy and Evans’s role in it.

97

19 F.3d 929, 943 (5th Cir. 1994) (quoting United States v.
Carreon, 11 F.3d 1225, 1231 (5th Cir. 1994)).

App. 50
c
Third, relying on evidence proffered after sentencing, Evans argues that “the district court erroneously
included billings that occurred both before and after
[Evans’s] agreement with Abide.” By his calculations,
his actual-loss total is reduced by $52,947.
Because Evans’s contention does not affect his
Guidelines calculation, it is only necessary to consider his argument as it relates to the court’s restitution order. The district court ordered restitution in
this case pursuant to the Mandatory Victim’s Restitution Act of 1996 (MVRA).98 “The MVRA authorizes restitution to a victim ‘directly and proximately harmed’
by a defendant’s offense of conviction.”99 Restitution orders are reviewed under an abuse of discretion standard,100 with factual findings reviewed for clear error.101
Importantly, “[a]n award of restitution greater than a
victim’s actual loss exceeds the MVRA’s statutory maximum.”102

98

See 18 U.S.C. § 3663A.
United States v. Sharma, 703 F.3d 318, 322 (5th Cir. 2012)
(quoting 18 U.S.C. § 3663A(a)(2)) (citing 18 U.SC. § 3663A(a)(1),
(c)(1)).
100
Id. (citing United States v. Mann, 493 F.3d 484, 498 (5th
Cir. 2007)).
101
Id. (citing United States v. Beydoun, 469 F.3d 102, 107
(5th Cir. 2006)).
102
Id. (first citing United States v. Chem. & Metal Indus.,
Inc., 677 F.3d 750, 752 (5th Cir. 2012); and then citing Beydoun,
469 F.3d at 107).
99

App. 51
Under these standards, we will not vacate Evans’s
restitution order. We assume without deciding that we
may consider the evidence Evans proffered after sentencing. Nevertheless, this evidence does little to call
into question the district court’s calculations. The loss
calculation in this case turned, in part, on the length
of time Evans participated in the conspiracy. As a result, Evans’s proffered report turns largely on the case
agent’s opinion as to when Evans’s involvement in the
conspiracy started and ended. According to Evans’s expert, the case agent concluded that Evans was involved
in a conspiracy with Abide from September 29, 2011
through January 31, 2014. But because the government exhibits used to calculate actual loss covered
more than just that particular period, Evans’s expert
concludes that the government exhibits “include claims
that are outside of the time period of [Evans’s] business affiliation with Abide.” Importantly, though, the
district court’s determination as to Evans’s start and
end dates differed from the government’s case agent.
Notably, although Evans proffered his expert’s report after sentencing, the expert report was drafted
two days before sentencing. The expert therefore could
not have known before writing the report that the district court would select different start and end dates
for Evans’s conspiracy than those suggested by the
case agent. In contrast to the case agent, the court concluded that the start and end dates for Evans’s involvement in the conspiracy were September 11, 2011 and
June 9, 2014, respectively.

App. 52
Ultimately, Evans’s proffered report does little to
challenge the district court’s restitution order and
hardly demonstrates that the district court’s factual
findings were clearly erroneous. We therefore decline
Evans’s request to remand his case to the district court
for resentencing.
E
Lastly, Evans contends the district court substantively erred during his sentencing. He argues the district court “failed to consider [several] categories of
evidence in determining the loss amount.” Specifically,
he points to the types of evidence he would have offered
at an evidentiary hearing: (1) “additional evidence[ ] to
rebut the presumption that the amount billed accurately depicts the loss amount;” (2) “evidence of . . . legitimate billings;” and (3) “evidence of . . . legitimately
rendered services.” After considering the totality of
the circumstances, though, we believe his sentence was
substantively reasonable.103 Sentences within the correctly calculated Guidelines range are afforded a presumption of reasonableness.104 Here, Evans’s correctly
103

See Gall v. United States, 552 U.S. 38, 51 (2007) (“When
conducting [a review of the substantive reasonableness of the sentence], the court will, of course, take into account the totality of
the circumstances, including the extent of any variance from the
Guidelines range.”).
104
United States v. Smith, 440 F.3d 704, 707 (5th Cir. 2006)
(citing United States v. Alonzo, 435 F.3d 551, 553-54 (5th Cir.
2006)); see also United States v. Diehl, 775 F.3d 714, 724 (5th Cir.
2015) (noting that “review for substantive reasonableness is
highly deferential, because the sentencing court is in a better

App. 53
calculated advisory Guidelines range called for between 63 and 78 months in prison. The court granted
a downward variance to 50 months in prison. This below-Guidelines sentence is afforded a presumption of
reasonableness in this court and Evans has not sufficiently rebutted that presumption. We therefore affirm
his sentence.
V
A
Paula Jones’s first issue on appeal concerns
whether the government produced sufficient evidence
to convict her of conspiracy to commit health care
fraud (Count 1) and conspiracy to violate the anti-kickback statute (Count 2).
As to Count 1, Jones, like her co-defendants, had a
financial incentive to engage in a conspiracy to commit
health care fraud. The government also presented evidence demonstrating: (1) Jones’s awareness that Abide
needed to bill $2,100 to break even for each home
health care episode; (2) the fact that she would generate reports monitoring the average revenue for home
health episodes weekly; (3) the fact that when a bill did
not reach $2,100, she would “g[i]ve the files back to the
case managers to see if they could get the score up to
at least $2,100[;]” (4) the fact that she routed one of
position to find facts and judge their import under the § 3553(a)
factors with respect to a particular defendant” (internal quotation
marks omitted) (quoting United States v. Hernandez, 633 F.3d
370, 375 (5th Cir. 2011))).

App. 54
Michael Jones’s billings without his required signature; and (5) the fact that Jones, as Abide’s biller,
routed each of the physicians’ fraudulent bills to Medicare. Further, evidence that she had “a ‘911’ code” in
the event law enforcement arrived also provided circumstantial evidence that she was aware criminal activity was afoot.
As to Count 2, Jones’s awareness of the fact that
her salary was tied to Michael Jones’s referrals, her
continued receipt of that salary, and her 911 code are
more than enough for a rational jury to conclude that
she agreed to participate in a conspiracy involving
health care kickbacks.
B
Jones maintains that the district court erred when
it refused to sever her from trial with the other defendants. Numerous times during trial, Jones moved under
Rule 14 for relief from prejudicial joinder. Under Rule
14, “[i]f the joinder of offenses or defendants in an indictment, an information, or a consolidation for trial
appears to prejudice a defendant or the government,
the court may order separate trials of counts, sever the
defendants’ trials, or provide any other relief that justice requires.”105 The trial court denied each of those
requests. On appeal, Jones argues the district court’s
refusal to sever her trial from the remaining defendants constituted error. She argues a joint trial resulted
in prejudicial spillover and argues that the judge’s
105

FED. R. CRIM. P. 14(a).

App. 55
limiting instructions inadequately addressed the prejudicial effect of a joint trial. We disagree.
“We review the denial of a motion to sever a trial
under the exceedingly deferential abuse of discretion
standard.”106 Severance under Rule 14 is proper “only
if there is a serious risk that a joint trial would compromise a specific trial right of one of the defendants,
or prevent the jury from making a reliable judgment
about guilt or innocence.”107 “[A] defendant ‘must prove
that: (1) the joint trial prejudiced him [or her] to such
an extent that the district court could not provide adequate protection; and (2) the prejudice outweighed the
government’s interest in economy of judicial administration.’ ”108
Here, the district court did not abuse its discretion
when it refused to grant Jones’s request for a separate
trial. Jones’s argument relies heavily on her assertion
that evidence aimed at her co-defendants would likely
spillover into her case. But the evidence adduced
against the remaining defendants was largely relevant
to Jones’s conduct as well. The substantive evidence
adduced against the remaining defendants largely established a “culture of fraud” at Abide. That same evidence, the district court noted, was relevant to whether
106

United States v. Reed, 908 F.3d 102, 114 (5th Cir. 2018)
(internal quotation marks omitted) (quoting United States v.
Chapman, 851 F.3d 363, 379 (5th Cir. 2017)).
107
Id. (quoting United States v. Mitchell, 484 F.3d 762, 775
(5th Cir. 2007)).
108
Id. (quoting United States v. Rodriguez, 831 F.3d 663, 669
(5th Cir. 2016)).

App. 56
“employees, like [Jones], knew or should have known
that their activities were part of a conspiracy to defraud Medicare.” Jones thus largely exaggerates the
spillover risks in this case.
Moreover, the district court’s instructions adequately alleviated the risk of unfair prejudice. The
district court’s instruction to consider each count separately was “sufficient to prevent the threat of prejudice resulting from [a joint trial].”109 Likewise, the
district court did not err in refusing to read Jones’s
hand-crafted instructions—instructions Jones contends would have further reduced the risk of unfair
prejudice. The district court refused to read her proposed instructions because they were more akin to a
closing argument, than jury instructions. We have “repeatedly rejected requested instructions that are ‘more
in the nature of a jury argument than a charge,’ ” and
do so again here.110
As the district court correctly noted, “[t]he rule,
rather than the exception, is that persons indicted
together should be tried together, especially in conspiracy cases.”111 Jones fails to explain adequately why her
case is the exception and not the rule. The district
109

United States v. Whitfield, 590 F.3d 325, 356 (5th Cir.
2009) (quoting United States v. Massey, 827 F.2d 995, 1005 (5th
Cir. 1987)).
110
United States v. Thompson, 761 F. App’x 283, 292 (5th Cir.
2019) (per curiam) (quoting United States v. Lance, 853 F.2d 1177,
1184 (5th Cir. 1988)).
111
United States v. Pofahl, 990 F.2d 1456, 1483 (5th Cir.
1993).

App. 57
court did not abuse its discretion when it declined to
grant Jones’s severance motion.
C
We next consider if the district court procedurally
erred when calculating the total-loss amount applicable to Jones’s sentence and restitution order.
Jones’s advisory Guidelines range and her restitution order turned on the amount of loss resulting from
the fraud. The court ultimately concluded that “the
reasonably foreseeable pecuniary harm” in this case
was $3,106,954.112 It arrived at that figure by first determining that Abide had billed $4,124,591.20 to Medicare during the relevant period and then reducing
that total by 32 percent because Jones was only logged
into Kinnser for 68 percent of the relevant time period.
On appeal, Jones contends the district court procedurally erred in calculating her advisory sentence.
She also alleges the district court’s restitution order,
which mirrored the district court’s loss-calculation,
was inflated. She argues that “[t]o hold her accountable for a loss amount of over $3 million vastly exaggerates her very limited role in the alleged conspiracy.”
She contends the district court erred when it concluded
that all of Abide’s Medicare billings were foreseeable
losses. “As a biller for the company,” she notes, “she
112

U.S. SENT’G GUIDELINES MANUAL §§ 2B1.1 cmt. n.3(A)(i)
(U.S. SENT’G COMM’N 2016); see also U.S. SENT’G GUIDELINES MANUAL §§ 2B1.1(b)(1) (U.S. SENT’G COMM’N 2016).

App. 58
would have no way of knowing whether . . . the doctors
had actually seen the patients in question, let alone
whether those patients actually . . . qualified for home
health care.” To demonstrate the significance of the district court’s error, Jones notes her loss amount was
substantially greater than all of the physicians in the
conspiracy.
We review sentencing decisions to ensure they are
reasonable.113 Jones specifically challenges the district
court’s loss calculation and its effect on the advisory
Guidelines calculation. If correct, her allegation would
constitute significant procedural error.114 As to the
standard of review applied to Jones’s appeal, Jones
takes issue with the factual predicates underlying the
district court’s methodology. That is, she argues the
district court erred insofar as it determined that all
billings Jones approved using Kinnser were “the

113

United States v. Nguyen, 854 F.3d 276, 280 (5th Cir. 2017)
(citing Gall v. United States, 552 U.S. 38, 46 (2007)).
114
See Gall, 552 U.S. at 51 (listing examples of “significant
procedural error, such as failing to calculate (or improperly calculating) the Guidelines range, treating the Guidelines as mandatory, failing to consider the § 3553(a) factors, selecting a sentence
based on clearly erroneous facts, or failing to adequately explain
the chosen sentence—including an explanation for any deviation
from the Guidelines range”).

App. 59
reasonably foreseeable pecuniary harm [of her] offense.”115 Her contention is thus subject to clear-error
review.116
Here, the district court’s factual finding survives
clear-error review. The district court’s well-reasoned
statement from the bench adequately justified its decision to hold Jones accountable for $3,106,954 in actual
losses. The district court noted that (1) “Jones participated in all of Abide billings, including fraudulent
billings;” (2) “her awareness of the fraud was much
more extensive” than she alleges; and (3) “her agreement to jointly undertake criminal activity extended to
the entire reach of the conspiracy.” As previously outlined, these conclusions find adequate support in the
record. The district court’s factual findings were thus
plausible on the current record.117
The fact that Jones’s loss amount exceeded that of
the physicians in the conspiracy is not determinative.
Because actual loss calculations turn on foreseeability,118 this result makes logical sense. One spoke of a
conspiracy—a physician, for example, in a health care
115

U.S. SENT’G GUIDELINES MANUAL § 2B1.1 cmt. n.3(A)(i)
(U.S. SENT’G COMM’N 2016).
116
See United States v. Isiwele, 635 F.3d 196, 202 (5th Cir.
2011) (citing United States v. Harris, 597 F.3d 242, 251 n.9 (5th
Cir. 2010)).
117
See United States v. Cooper, 274 F.3d 230, 238 (5th Cir.
2001) (citing United States v. Puig-Infante, 19 F.3d 929, 942 (5th
Cir. 1994)) (“A factual finding is not clearly erroneous if it is plausible in light of the record read as a whole.”).
118
See U.S. SENT’G GUIDELINES MANUAL § 2B1.1 cmt. n.3(A)
(U.S. SENT’G COMM’N 2016).

App. 60
fraud scheme—may be unable to foresee the true scope
of the conspiracy. But a person who processes each bill
of an organization he or she knows is engaged in fraudulent conduct would be able to foresee the full scale of
the fraud.119 Thus, despite Jones’s contentions, the factual findings that formed the basis of the district
court’s loss-calculation methodology are not clearly erroneous. For the same reasons, the district court’s restitution order survives appellate review.120
VI
A
Gregory Molden argues that there was insufficient
evidence to convict him of conspiracy to commit health
care fraud (Count 1), conspiracy to violate the antikickback statute (Count 2), and eleven counts of substantive health care fraud (Counts 32 through 42).

119

Cf. United States v. Dehaan, 896 F.3d 798, 808 (7th Cir.
2018) (“[R]egardless of whether the agencies themselves engaged
in independent wrongdoing when they billed Medicare for these
services, the billings were the direct and foreseeable result of
DeHaan’s fraud as the gatekeeper in certifying the patients; without his certification, the agencies could not have billed Medicare
and Medicare would not have compensated the agencies for the
services they provided. The Medicare payments are a reasonable
approximation of the loss resulting from DeHaan’s own criminal
conduct. . . .”).
120
See United States v. Mahmood, 820 F.3d 177, 196 (5th Cir.
2016) (citing United States v. Echols, 574 F. App’x 350, 359 (5th
Cir. 2014) (per curiam)); see also Dehaan, 896 F.3d at 808.

App. 61
1
Molden contends there was insufficient evidence
to find him guilty of either conspiracy charge. As to
Count 1, Crinel pleaded guilty to conspiring with
Molden to commit health care fraud; evidence at trial
suggested Molden had a financial incentive to join the
conspiracy; and the statistical evidence is likewise probative of Molden’s guilt. The evidence related to each
of Molden’s substantive health care fraud counts similarly reinforces the jury’s conclusion that Molden’s actions were fraudulent. Together, this evidence is more
than enough for the jury to conclude that Molden participated in a conspiracy to commit health care fraud.
The evidence presented as to Count 2 is perhaps
even more compelling. Evidence presented at trial suggested Molden was paid $5,000 a month to work for
Abide. Before Molden entered into this arrangement
with Abide, he had several form 485s at Abide that had
yet to be signed. According to Crinel, “in order for him
to sign the 485s and to continue to send patients to
[Abide], he wanted a salary.” Wilneisha Jakes also testified that Molden was being paid for patient referrals.
Coupled with the fact that Crinel admitted to paying
Molden kickbacks, there was more than enough evidence to convict Molden on Count 2.
2
Likewise, Molden contends there was insufficient
evidence to convict him of substantive health care
fraud. Counts 32 through 37 related to patient KeTr.

App. 62
Counts 38 to 42 related to patient ShBe. Unlike his codefendants who argued they were unaware their patients did not qualify for home health care, Molden
seems to argue his patients did qualify for these services.
As to patient KeTr, the jury could reasonably infer
from Dr. Lutz’s testimony that this patient did not
qualify for home health care. Molden had qualified
KeTr for home health care because the patient suffered
from Type 2 diabetes. But as Dr. Lutz noted, “Molden
ordered blood tests on the same day he admitted
[KeTr] to home health, and those blood tests came back
[within normal levels].” Thus, according to Dr. Lutz,
KeTr’s diabetes was “perfectly controlled.” Dr. Lutz
also testified that nurses had difficulty locating KeTr
while he was receiving home health care. During several visits to KeTr’s home, nurses would knock on the
door, but no one would answer. The logical inference
from such evidence is that KeTr was not, in fact, homebound. In fact, he was eventually disenrolled from
home health care after nurses could not locate him. Together, this evidence more than suggests KeTr was
not homebound when Molden certified him for home
health care. There was thus sufficient evidence to convict Molden of substantive health care fraud with regard to his treatment of KeTr.
As for patient ShBe, the evidence was also sufficient to convict Molden of substantive health care
fraud. Dr. Lutz testified that: (1) ShBe’s patient file
lacked documentation to support Molden’s diagnoses;
(2) ShBe’s diagnoses were shuffled; and (3) ShBe was

App. 63
not home during several home health visits. As an example of suspicious certifications, Dr. Lutz noted that
eight days prior to Molden recertifying ShBe for an
episode of home health care based on hypertension, her
blood pressure had been normal. He further opined
that ShBe did not require skilled nursing care. The
jury could reasonably have concluded that ShBe did
not require home health care.
B
Like Barnes, Molden argues the district court
erred when it refused to read several Medicare instructions to the jury. For the reasons outlined earlier, the
court did not abuse its discretion when it refused to
read the proffered instructions to the jury.
C
Like Evans, Molden argues the district court erred
in permitting Dr. Lutz to testify as an expert. For the
reasons outlined earlier, the court’s decision to permit
such testimony did not amount to an abuse of discretion.
*

*

*

The district court’s judgment is AFFIRMED.

App. 64
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
------------------------------------------------------

No. 18-31074
------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff—Appellee,
v.
GREGORY MOLDEN, M.D.,
Defendants—Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:15-CR-61-23
-----------------------------------------------------------------------

Before OWEN, Chief Judge, and HAYNES and COSTA,
Circuit Judges.
JUDGMENT
(Filed Oct. 28, 2020)
This cause was considered on the record on appeal
and was argued by counsel.
IT IS ORDERED and ADJUDGED that the judgment of the District Court is AFFIRMED.

App. 65
IT IS FURTHER ORDERED that appellant pay to
appellee the costs on appeal to be taxed by the Clerk of
this Court.

App. 66
United States Court of Appeals
for the Fifth Circuit
------------------------------------------------------

No. 18-31074
------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff—Appellee,
versus
SHELTON BARNES; MICHAEL JONES; HENRY EVANS;
PAULA JONES; GREGORY MOLDEN, M.D.,
Defendants—Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:15-CR-61-7
-----------------------------------------------------------------------

ON PETITION FOR REHEARING AND
REHEARINGS EN BANC
(Filed Jan. 4, 2021)
(Opinion 10/28/2020, 5 CIR., ___, ___ F.3D ___)
Before OWEN, Chief Judge, and HAYNES, and COSTA,
Circuit Judges.*
PER CURIAM:
(🗸) The Petition for Rehearing of Appellant Paula
Jones is DENIED and no member of this panel nor
* Judge Kurt D. Engelhardt, did not participate in the consideration of the rehearings en banc.

App. 67
judge in regular active service on the court having
requested that the court be polled on Rehearing
En Banc, (Fed. R. App. P. and 5TH Cir. R. 35) the
Petition for Rehearing En Banc of Appellant Paula
Jones is also DENIED.
( ) The Petition for Rehearing of Appellant Paula
Jones is DENIED and the court having been
polled at the request of one of the members of the
court and a majority of the judges who are in regular active service and not disqualified not having
voted in favor, (Fed. R. App. P. and 5TH Cir. R. 35)
the Petition for Rehearing En Banc of Appellant
Paula Jones is also DENIED.
( ) A member of the court in active service having requested a poll on the reconsideration of this cause
En banc, and a majority of the judges in active service and not disqualified not having voted in favor,
Rehearing En Banc of Appellant Paula Jones is
DENIED.
(🗸) Treating the Petition for Rehearing En Banc of
Appellant Shelton Barnes as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of the panel nor judge in regular active service of the court having requested
that the court be polled on Rehearing En Banc
(FED. R. APP. P. and 5TH CIR. R. 35), the Petition
for Rehearing En Banc of Appellant Shelton
Barnes is DENIED.
( ) Treating the Petition for Rehearing En Banc of
Appellant Shelton Barnes as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court having been polled at the request
of one of the members of the court and a majority

App. 68
of the judges who are in regular active service and
not disqualified not having voted in favor (FED. R.
APP. P. and 5TH CIR. R. 35), the Petition for Rehearing En Banc of Appellant Shelton Barnes is DENIED.
(🗸) Treating the Petition for Rehearing En Banc of
Appellant Gregory Molden as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of the panel nor judge in regular active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5TH Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Gregory
Molden is DENIED.
( ) Treating the Petition for Rehearing En Banc of
Appellant Gregory Molden as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court having been polled at the request
of one of the members of the court and a majority
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5TH Cir. R. 35), the Petition for Rehearing En Banc of Appellant Gregory Molden is
DENIED.
(🗸) (Treating the Petition for Rehearing En Banc of
Appellant Henry Evans as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of the panel nor judge in regular active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5TH Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Henry Evans
is DENIED.

App. 69
( ) Treating the Petition for Rehearing En Banc of
Appellant Henry Evans as a Petition for Panel Rehearing, the Petition for Panel Rehearing is DENIED. The court having been polled at the request
of one of the members of the court and a majority
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5TH Cir. R. 35), the Petition for Rehearing En Banc of Appellant Henry Evans is DENIED.
(🗸) Treating the Petition for Rehearing En Banc of
Appellant Michael Jones as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of the panel nor judge in regular active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5TH Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Michael Jones
is DENIED.
( ) Treating the Petition for Rehearing En Banc of
Appellant Michael Jones as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court having been polled at the request
of one of the members of the court and a majority
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5TH Cir. R. 35), the Petition for Rehearing En Banc of Appellant Michael Jones is
DENIED.

App. 70
United States Court of Appeals
for the Fifth Circuit
------------------------------------------------------

No. 18-31078
------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff—Appellee,
versus
JONATHON NORA,
Defendants—Appellants.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:15-CR-61-8
--------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Feb. 24, 2021)
Before HIGGINBOTHAM, JONES, and HIGGINSON, Circuit
Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
A jury convicted Appellant Jonathon Nora of three
crimes: conspiracy to commit health care fraud, in violation of 18 U.S.C. § 1349 (Count 1); conspiracy to pay
or receive illegal health care kickbacks, in violation of
18 U.S.C. § 371 and 42 U.S.C. § 1320a-7b(b)(2) (Count
2); and aiding and abetting health care fraud, in violation of 18 U.S.C. §§ 1347 and 2 (Count 27). Nora
challenges his convictions as based on insufficient

App. 71
evidence. We REVERSE his convictions and VACATE
his sentence.
I.

BACKGROUND

While Nora is the sole appellant in this case, he
was not alone at trial. Nora was tried and convicted
alongside five codefendants for his involvement in a
large home health care fraud and kickback scheme
in connection with his employment at Abide Home
Health Care Services, Inc. His codefendants—Dr. Shelton Barnes, Dr. Michael Jones, Dr. Henry Evans, Dr.
Gregory Molden, and Paula Jones—also appealed their
convictions, but their case was resolved by a separate
panel of this court in United States v. Barnes, 979 F.3d
283 (5th Cir. 2020). That panel affirmed the codefendants’ convictions. Id. at 292. In doing so, it also described the nature of the fraud and kickback schemes
run out of Abide, the facts of which are also relevant to
Nora’s appeal. Id. at 292-94. We thus borrow Barnes’s
description of the overall schemes before turning our
focus to Nora’s specific role at Abide.
As described in Barnes:
Dr. Shelton Barnes, Dr. Michael Jones, Dr.
Henry Evans, Paula Jones, and Dr. Gregory
Molden were each previously employed by
Abide Home Care Services, Inc., a home
health agency owned by Lisa Crinel. Barnes,
Michael Jones, Evans, and Molden served as
“house doctors.” In that role, the physicians
referred patients to Abide for home health
care services. Paula Jones, Michael Jones’s

App. 72
wife, was one of Abide’s billers. As a biller,
Jones would process Medicare filings. She
would use the Kinnser billing system (Kinnser)
to ensure that all appropriate documentation
existed for each bill. As part of Abide’s business model, it would “provide home health
services to qualified patients and then bill
Medicare accordingly.”
Medicare reimburses providers for home
health care services if a particular patient is
(1) eligible for Medicare and (2) meets certain requirements. Those requirements include,
inter alia, that the patient is “ ‘homebound,’
under a certifying doctor’s care, and in need of
skilled services.” Certifying a patient for home
health care begins with an initial referral,
which typically originates with the patient’s
primary care physician. Next, “a nurse goes to
the patient’s home to assess if [he or] she is
homebound, completing an Outcome and Assessment Information Set [(OASIS)].” From
the OASIS assessment, the nurse develops a
plan of care on a form known as a “485” for the
prescribing physician’s review. Only a physician can approve a 485 plan. Physicians are
expected to review the forms to ensure they
are accurate. These forms, as well as a face-toface addendum certifying that the nurse met
with the patient, are then routed to Medicare.
This process permits payment for one 60-day
episode. Patients can then be recertified for
subsequent episodes.
Medicare determines how much will be
paid for each episode based, in part, on the

App. 73
patient’s diagnosis. Each diagnosis has a corresponding code derived from the International Statistical Classification of Diseases
and Related Health Problems 9th Revision
(an ICD-9 code). Reimbursements are higher
for some diagnoses than others. So-called
“case-mix diagnoses” such as rheumatoid
arthritis, cerebral lipidosis, and low vision,
receive higher payments than other, comparatively simpler diagnoses. As a result, false or
erroneous entries on the OASIS form can ultimately result in higher Medicare reimbursements.
The government came to suspect that
Abide was committing health care fraud. Specifically, the government alleged that “Abide
billed Medicare based on plans of care that
doctors authorized for medically unnecessary
home health services.” According to the government, several patients who had received
home health care from Abide did not, in fact,
need such services. Each physician had “approved [case-mix] diagnoses to patients on . . .
485s that were medically unsupported.” Paula
Jones had also participated in the scheme.
Through Kinnser, Abide employees were able
to predict how much Medicare would reimburse for a particular episode of home health
care. If the episode did not meet Abide’s
“break-even point,” Jones would send “the
files back to the case managers to see if they
could get the score up.” These and other actions “fraudulently inflated Medicare’s reimbursement to Abide.”

App. 74
Relatedly, the government also came to
suspect that Abide was “pay[ing] doctors, directly or indirectly, for referring patients.” The
government alleged that Crinel (the owner
of Abide) had paid the physicians for patient
referrals. Some of these payments were “disguised as compensation for services performed as [medical directors]” for Abide. The
government also alleged that Paula Jones’s
salary, which had doubled during her time
working for Abide, was based on her husband’s referrals. This conduct, the government alleged, constituted a violation of 42
U.S.C. §§ 1320a-7b(b)(1), (b)(2)—the antikickback statute.
Barnes, 979 F.3d at 292-93 (quoting United States v.
Ganji, 880 F.3d 760, 764, 777 (5th Cir. 2018)).
In addition to Nora and his codefendants at trial,
the Government alleged that many others participated
in the fraud. In total, the Government indicted 23 individuals. Several pleaded guilty instead of going to
trial, including Crinel—the head of Abide and chief orchestrator of the fraud. As part of her plea bargain,
Crinel agreed to cooperate with the Government and
to testify at trial against Nora and his codefendants.
The trial lasted 21 days and included evidence relating
to Nora’s role at Abide and his purported involvement
in the fraud and kickback schemes.
Nora began working at Abide on October 6, 2009,
when Crinel hired him to be a full-time data entry
clerk earning $13 an hour. At the time, Nora was 22
years old and had a high school degree along with some

App. 75
college credits. On September 27, 2012, he was promoted to the position of office manager and began
earning an annual salary of $60,000. Nora continued
to work at Abide through March 25, 2014, the date the
Government executed a number of search warrants on
Abide. Notably, Nora remained salaried throughout his
employment at Abide and the Government points to no
evidence that he received other compensation.
In this role, Nora coordinated new patient intake
and admissions. To begin the processing of a new patient, Nora would field calls from referrers of potential
new patients. Nora would then collect that patient’s
Medicare or other insurance information to verify her
benefits covered Abide’s services. He would then assign
a nurse to conduct an evaluation of the patient’s eligibility for home health care. If the nurse approved the
patient for care, Nora would then assign a field nurse
to make the regular home health visits. Nora also
helped with the data entry of forms generated during
this process, such as the OASIS forms and 485s completed by reviewing nurses and case managers.
Abide received patient referrals from a variety of
sources, including from its own house doctors and
other employees, as well as outside doctors and other
non-employees. Abide also engaged in various marketing practices to identify potential patients, such as by
sending recruiters to local health fairs. Nora was
among those assigned to follow up with potential patients identified by recruiters. Nora would call these
potential patients, reintroduce Abide, and ask about
their interest in home health care. If the potential

App. 76
patient was interested and had her own doctor, Nora
would contact that doctor to see if the doctor approved
of home health services for the patient. If the doctor
did approve, the doctor would send a referral form to
Nora, who would in turn submit it to Abide’s reviewing
nurses. If the potential patient did not have her own
doctor, Nora would offer the patient the services of one
of Abide’s house doctors, who could review the patient’s
suitability for home health care. In addition, when a
potential patient had her own doctor, but the doctor did
not think home health care was appropriate for that
patient, Nora would follow up with the patient to inform her of her doctor’s recommendation. Nora would
also tell these patients that they might still be eligible
for home health care, but that they would need to be
evaluated by a different doctor. If the patient remained
interested in Abide’s services notwithstanding her own
doctor’s recommendation, Nora would offer to assign
the patient to one of Abide’s house doctors for a separate evaluation of her eligibility.
Beyond the admissions process, Nora was responsible for scheduling home nursing visits for the patients and processing the visit notes. He also helped
track patient recertifications.
The evidence at trial showed that Nora’s role entangled him, to some extent, in three practices that
were central to Abide’s fraud and kickback schemes.
The first was Abide’s use of house doctors. As the
court in Barnes described (in the excerpt above), Abide
would rely on its house doctors to approve medically

App. 77
unnecessary plans of care so that it could bill Medicare
for patients who would otherwise not qualify for home
health services. By virtue of his role in assigning prospective patients to these house doctors, the Government contended that Nora was complicit in this
practice.
The second was Abide’s pay-for-referral system. As
just discussed, Abide relied on referrals to acquire new
patients. And when a referral successfully resulted in
a new patient, Abide would pay the person who made
the referral. The Government contended at trial that
these referral payments were illegal “kickbacks” in violation of 42 U.S.C. § 1320a-7b(b). There was abundant
evidence at trial showing that Nora was involved in
processing these payments and that he knew they
were for patient referrals. Nora helped maintain a log
of referrals and would inform the referrers that their
referred patient had been admitted and that they
could thus receive compensation in return. Nora was
also sometimes instructed to deliver referral payment
checks to those who had made successful referrals.
The third practice at Abide in which Nora was involved was known as “ghosting.” As described above by
the court in Barnes, when a patient satisfies Medicare’s requirements for home health services, Medicare
will approve payment for one 60-day episode of care.
Should the patient need additional care beyond that
episode, they can be recertified for additional 60- day
episodes. However, as Crinel explained at trial, home
health is intended to be a temporary benefit and it

App. 78
raises a “red flag” to Medicare if a patient is re-certified
for too many episodes in a row.
To avoid suspicion, Crinel instituted a system
whereby patients would be “ghosted.” Here’s how
ghosting worked: once a patient had been in Abide’s
system for “a couple of years,” Abide would officially
discharge the patient but informally hold onto them,
with the assigned nurses continuing to make home
visits. From the patient’s perspective, nothing had
changed and thus the patient had no incentive to leave
Abide and seek home health services elsewhere. But
from Medicare’s perspective, this patient was no longer
receiving services from Abide. While a patient was being ghosted, Abide would not bill that patient or charge
Medicare. When Abide’s nurses would visit a ghosted
patient, instead of entering the visit data into Abide’s
electronic record system as was done for formal visits,
the nurses submitted a paper note to record the visit.
After 60 days, the ghosted patient would be re-enrolled
as an official patient and Abide would resume billing
Medicare.
In contrast to Nora’ s involvement in the pay-forreferral scheme, it is not clear what Nora’s responsibilities were with respect to ghosting. Crinel maintained
a list of patients who needed to be ghosted and would
send that list to Gaynell Leal, a case manager at Abide,
and to Nora. It is not clear what Nora would do once
he received that list, but the evidence suggests he was
at least aware of what was happening (in the sense
that he knew patients were being discharged but still

App. 79
treated by Abide’s nurses1) and helped make scheduling changes to facilitate the practice. For example, Leal
testified that after receiving the list from Crinel, she
wrote up a note describing that a certain patient
should be discharged and then brought back at a later
date. She gave that note to Nora so that he could, in
his capacity as a scheduler, inform the patient’s assigned nurse that the patient had been discharged but
that the nurse should continue making visits and turning in paper notes recording the visit data. Leal also
testified that “[e]veryone in the office” knew about
ghosting.
Beyond Nora’s general involvement in Abide’s
practices, the Government also introduced evidence related to one of Abide’s patients named “EvLa.” Nora’s
purported involvement with EvLa’s experience at
Abide formed the basis of his conviction for aiding and
abetting health care fraud (Count 27).
EvLa was a patient at a group home that referred
its patients to Abide for home health services. The
owner of the group home, Verinese Sutton, testified
that—as a general matter—when she wanted to refer
a patient to Abide she would sometimes call Nora to
make the referral. After receiving the referral, Nora
would send a nurse from Abide to assess the patient
and would then refer the patient to Dr. Michael Jones,
one of Abide’s house doctors. Sutton also described that
1

As will be discussed below, it is a separate question
whether Nora was aware of the unlawful purpose behind ghosting.

App. 80
when she went to Abide to pick up her referral payments, Nora would usually be the one to hand her the
checks.
Separately, Sutton also testified that EvLa was
one of her group home patients who received home
health care services from Abide. EvLa was under the
care of Dr. Jones. Other evidence was introduced at
trial that showed that EvLa was not actually homebound and that she was thus ineligible for home health
care.
Aside from the evidence describing Nora’s general
involvement in sometimes fielding Sutton’s referrals to
Abide and his handling of Sutton’s payments, there is
no specific evidence about whether he was involved
with EvLa’ s experience at Abide or with her treatment
by Dr. Jones.
At the conclusion of the Government’s case-inchief, Nora moved for a judgment of acquittal pursuant
to Federal Rule of Criminal Procedure 29, which the
district court denied without particularizing evidence
of Nora’s knowledge of the unlawfulness of Abide’s
practices. Just as he had not made any opening argument, Nora did not call any defense witnesses. The jury
then returned its verdict convicting Nora on all three
counts. Following the verdict, Nora renewed his motion
for judgment of acquittal, and in the alternative,
moved for a new trial. The district court denied the motion, again without pointing to particularized evidence
of Nora’s knowledge of the unlawfulness of Abide’s
practices.

App. 81
The district court sentenced Nora to a concurrent
sentence of 40 months’ imprisonment on each count,
followed by one year of supervised release. This was a
downward variance from the Guidelines range because
the court found that “the loss calculation overstated
[Nora’s] participation.” The court also ordered Nora
to pay restitution to Medicare in the amount of
$12,921,797.
Nora filed a timely notice of appeal.
II.

LEGAL STANDARD

As he argued to the district court in his Rule 29
motions, Nora asserts here that his convictions are not
supported by sufficient evidence.
Where, as here, a defendant has timely
moved for a judgment of acquittal, this court
reviews challenges to the sufficiency of the evidence de novo. Though de novo, this review is
nevertheless highly deferential to the verdict.
Because of the shortcomings inherent in examining a cold appellate record without the
benefit of the dramatic insights gained from
watching the trial, we review the evidence
and all reasonable inferences in the light most
favorable to the prosecution and to determine
whether any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.
United States v. Nicholson, 961 F.3d 328, 338 (5th Cir.
2020) (internal quotation marks and citations omitted).

App. 82
III.

DISCUSSION

There is no dispute that Nora worked at Abide
while fraud and kickback schemes occurred, but what
is in dispute is whether Nora knew that his work was
unlawful. Or, legally, whether there was sufficient evidence introduced at trial for a rational juror to conclude beyond a reasonable doubt that Nora acted
“willfully” to defraud Medicare or to pay illegal health
care kickbacks.
18 U.S.C. § 1347(a)(1) makes it a crime to “knowingly and willfully . . . defraud any health care benefit
program.” 18 U.S.C. § 1349 extends that liability to
those who conspire to defraud a health care benefit
program.
42 U.S.C. § 1320a-7b(b)(2), the anti-kickback
statute, makes it a crime to “knowingly and willfully
offer[ ] or pay[ ] any remuneration (including any kickback, bribe, or rebate)” to induce someone to refer an
individual to a health care provider for which payment
may be made under a federal health care program.
“As a general matter, when used in the criminal
context, a ‘willful’ act is one undertaken with a ‘bad
purpose.’ In other words, in order to establish a ‘willful’
violation of a statute, ‘the Government must prove that
the defendant acted with knowledge that his conduct
was unlawful.” Bryan v. United States, 524 U.S. 184,

App. 83
191-92 (1998) (quoting Ratzlaf v. United States, 510
U.S. 135, 137 (1994)).2
Although the precise meaning of the term “willfully” can vary depending on the context, id. at 191,
this court has held that the general understanding of
the term applies to its use in the general health care
fraud statute and the health care anti-kickback statute. See, e.g., United States v. Ricard, 922 F.3d 639, 648
(5th Cir. 2019) (“Willfulness in the Medicare kickback
statute means that the act was committed voluntarily
and purposely with the specific intent to do something
the law forbids; that is to say, with bad purpose either
to disobey or disregard the law.” (internal quotation
marks and citation omitted)); United States v. St. John,
625 F. App’x 661, 666 (5th Cir. 2015) (per curiam) (accepting the district court’s § 1347 willfulness instruction, which stated that “willfully . . . means that the act
was committed voluntarily or purposely, with the specific intent to do something the law forbids; that is to
say, with bad purpose either to disobey or disregard the
law” (alteration in original)); see also United States v.
Willett, 751 F.3d 335, 339 (5th Cir. 2014) (holding that
§ 1347 requires “specific intent to defraud”).3
2

The Court in Bryan also described the general definition of
“knowingly” when used in the criminal context. Bryan, 524 U.S.
at 193 (“[U]nless the text of the statute dictates a different result,
the term ‘knowingly’ merely requires proof of knowledge of the
facts that constitute the offense.”).
3
Importantly, with this general definition of willfulness, for
a defendant to act with knowledge that his conduct is unlawful
does not require him to have awareness of the specific law he
is charged with violating. Congress has made clear that such a

App. 84
Neither conspiracy nor aider and abettor liability
lowers this mens rea requirement. Conspiracy “has two
intent elements—intent to further the unlawful purpose and the level of intent required for proving the
underlying substantive offense.” United States v.
Brooks, 681 F.3d 678, 699 (5th Cir. 2012); see also Willett, 751 F.3d at 339 (“To prove a conspiracy to commit
health-care fraud in violation of 18 U.S.C. § 1349, the
government must prove . . . that the defendant joined
in the agreement willfully, that is, with intent to further the unlawful purpose.” (internal quotation marks
and citation omitted)). And aider and abettor liability
under 18 U.S.C. § 2 “results from the existence of a
community of unlawful intent between the aider or
abettor and the principal.” United States v. Sanders,
952 F.3d 263, 277 (5th Cir. 2020). In other words, an
aider and abettor must share the same level of intent
as the principal. United States v. Williams, 985 F.2d
749, 755 (5th Cir. 1993).
Nora argued throughout his trial and now to us
that he “did not have the intent, knowledge, nor awareness of an illegal health care fraud scheme or illegal
heightened showing is not required to convict a defendant of committing health care fraud or paying illegal health care kick-backs;
both statutes were amended in 2010 to specify that “a person
need not have actual knowledge of this section or specific intent
to commit a violation of this section.” 18 U.S.C. § 1347(b); 42
U.S.C. § 1320a-7b(h); see also John, 625 F. App’x at 666. See generally Robb DeGraw, Defining “Willful” Remuneration, 14 J. L. &
HEALTH 271 (2000) (discussing various interpretations of “willful”
in the context of the anti-kickback statute and in criminal law
more broadly).

App. 85
health care kickbacks at Abide required to convict
him. . . .” For example, he argues that while he may
have understood that Abide was making referral payments for new patients, there was no evidence at trial
that proved that he knew these payments constituted
unlawful kickbacks. He argues the same is true with
respect to his role in the various practices that constituted Abide’s fraud on Medicare and with respect to
Abide’s treatment of EvLa.
We agree. While the Government presented evidence at trial detailing Nora’s role at Abide and his
work responsibilities, the evidence did not prove
that Nora understood Abide’s various practices and
schemes to be fraudulent or unlawful, and thus there
was insufficient evidence to conclude that Nora acted
with “bad purpose” in carrying out his responsibilities
at Abide. Furthermore, the evidence the Government
points to as suggestive of Nora’s understanding of the
unlawful nature of his work at Abide fails upon close
inspection.
For example, the Government argues that Nora
“received training on compliance, Medicare, and home
health,” with the implication being that this training
alerted him to the unlawful nature of Abide’s practices.
But the evidence cited in support of this assertion comprises two pieces of paper of limited probative value.
The first is a one-page certificate that states that
Nora “has successfully completed” the “2013 Palmetto
GBA Home Health Workshop Series” sponsored by
the “HomeCare Association of Louisiana” which is

App. 86
described as an “approved provider of continuing nursing education.” The certificate states that the workshop lasted for four hours. Through the testimony of an
investigating agent, the Government only further elicited that this was a “home-health-specific training”
and that Palmetto GBA was a Medicare contractor.
There is no evidence about what this training entailed
or if it discussed health care laws or Medicare regulations at all, let alone regulations about kickbacks or
activity relating to “ghosting.”
The second piece of evidence is an Abide form
signed by Nora on October 29, 2009, that states that
Nora “participated with the compliance program” and
has “been briefed on compliance.” It also states that
Nora has “been made aware that if [Nora] know[s] of
any fraudulent behavior and/or abuse of any kind,
[he] is to report this behavior to the CEO and/or
DON/Administrator as soon as possible.” Again, there
is no description of what this compliance program entailed.
In addition, the Government cites the fact that
Nora would attend regular staff meetings at Abide,
where among other things, “any changes to Medicare
regulations” were discussed. There is no further evidence about what regulations were discussed at these
meetings.
This evidence is insufficient. A juror would have
to make a speculative leap about the content of these
trainings and meetings—that they somehow alerted
Nora to the unlawfulness of Abide’s practices and the

App. 87
actions he took to support them. A rational juror would
need more to conclude that Nora acted “willfully.”
Of course, formal trainings were not the only route
for Nora to learn about health care regulations or the
impropriety of Abide’s practices. He could have learned
directly from his colleagues. Indeed, Nora worked with
individuals at Abide who clearly understood that Abide
was engaging in widespread unlawful and fraudulent
activity. Gaynell Leal, for example, testified that she
knew that Abide engaged in “ghosting” in order to
avoid “draw[ing] a red flag to Medicare.” And Crinel, of
course, knew that Nora’ s work helped Abide elude
health care regulations.
Both Leal and Crinel testified for the Government
to explain Abide’s schemes. Yet neither person (nor
anyone else, for that matter) testified that Nora understood the unlawful or fraudulent purpose behind
Abide’s practices. Neither testified that she had had a
conversation with Nora about avoiding red flags, or the
illicitness of referral payments, or that the house doctors unlawfully approved medically unnecessary plans
of care.
Leal testified that “[e]veryone in the office” knew
about ghosting. But Leal goes no further than that. We
do not know whether everyone in the office knew just
that Abide engaged in that practice, or whether everyone in the office knew that the practice was employed
to evade Medicare regulations. Arguably, the “ghosting” practice is inherently suspicious. But even if a reasonable person in Nora’ s shoes should have known (or

App. 88
at least suspected) that ghosting was unlawful, that
would only make Nora guilty of negligently participating in a fraud—it does not prove that Nora acted
“willfully” in facilitating ghosting and the fraud it furthered. See United States v. Crow, 504 F. App’x 285, 287
(5th Cir. 2012) (per curiam) (describing that negligence
could not give rise to liability for health care fraud
where the statute required the defendant act “knowingly and willfully”).
Similarly, Crinel testified that there was a “culture” at Abide “that [Abide] needed to hold on to [its]
patients so [it] [could] make payroll” and that medical
necessity did not matter. She also described that she
once threatened to fire Leal and Nora when they had
discharged a patient. Crinel’s testimony isn’t worthless—if an organization has a pervasive culture of disregard for the rules, that can lend credence to the case
that an individual member of that organization is
aware of wrongdoing. This type of “everybody knew”
testimony can thus bolster a case that an individual
acted willfully. But here, it just isn’t enough. These two
general statements about a business operating in a
health care industry subject to a complex system of
laws and regulations cannot impute “bad purpose” to
all 150 employees who worked there.
Comparing the evidence presented against Nora
in this case to the evidence presented in a similar case
against a similarly situated defendant further reveals
what is lacking here. In United States v. Murthil, the
defendant, Joe Ann Murthil, was the office manager at
Memorial, a home health care provider. 679 F. App’x

App. 89
343, 347 (5th Cir. 2017) (per curiam). Memorial was
run by Mark Morad, who used it to orchestrate a broad
health care fraud and kickback scheme similar to the
one run by Crinel out of Abide. See id. at 346-47. And
like Crinel here, Morad was the Government’s key
witness at trial. Id. at 346. For her role in Morad’s
schemes, Murthil was convicted of conspiracy to commit health care fraud, conspiracy to pay health care
kickbacks, and substantive health care fraud—an
identical slate of convictions to Nora’s. Id. On appeal,
Murthil argued that there was insufficient evidence to
conclude that she acted with the requisite level of intent. Id. at 348-49. She argued that she was a “ ‘pawn’
that the other conspirators took advantage of ‘because
she did her job without asking questions.’ ” Id.
In affirming Murthil’s convictions, this court explained that:
The Government presented testimony
that Murthil, the office manager at Memorial,
had two decades of experience in the home
healthcare field and that, in her role as the
person in charge of billing, Murthil understood the healthcare regulations. Among
other evidence, Morad testified that Murthil
knew her patients came from recruiters, not
from doctor’s referrals, that Murthil understood that clients were not homebound, and
that it was Murthil’s responsibility to keep
track of and reassign non-homebound patients away from nurses who were unwilling
to risk their licenses by treating non-homebound patients to nurses who were willing to

App. 90
treat and recertify such patients. Based on the
totality of this evidence in the extensive record, we conclude that a rational trier of fact
could have found that Murthil was knowingly
complicit in Morad’s scheme to defraud Medicare.
...
As to Murthil’s knowledge that the checks
she gave to patient recruiters were illegal
kickbacks under 18 U.S.C. § 371, among other
evidence, Morad testified that he had conversations with Murthil regarding the impropriety of selling Medicare numbers and about
paying kickbacks to recruiters. He also testified that a recruiter was allowed to give patient information only to Murthil, “the only
person that [he] trusted” because he “did not
want anyone else in the office to know that
[he] was paying kickbacks to [a recruiter] or
that’s how [they] were getting [their] patients.”
Id. at 349.
Thus, in Murthil, the Government had presented
evidence that (1) Murthil had 20 years of experience in
the home health care field and understood Medicare
regulations due to her role handling billing, (2) she
knew patients were not homebound and reassigned
those patients to nurses who were willing to risk their
licenses, (3) she had had conversations with Morad
about the impropriety of paying kickbacks to recruiters, and (4) she was the only one trusted by Morad—
the chief facilitator of the fraud.

App. 91
Nora, by contrast, joined Abide at age 22 with a
high school degree. He did not handle billing. The Government identifies no evidence that he knew that any
of Abide’s patients were not actually homebound, or
that he knew he was assigning patients to nurses or
doctors who were willing to run afoul of regulations
and risk their licenses. Crinel, cooperating with the
Government, never testified that she had any conversations with Nora about the impropriety of Abide’s
practices, nor that Nora served as a co-conspirator.4
That the Government had the cooperation of the chief
orchestrator of Abide’s fraud but nevertheless failed to
elicit testimony directly establishing the knowing complicity of Nora is especially telling.
Perhaps recognizing the absence of specific evidence demonstrating Nora’ s knowledge of the unlawfulness of Abide’s practices, the Government argues
that because Nora worked for five years at Abide and
his role put him near many of its fraudulent or illegal
practices, “it is difficult to believe that he was oblivious
to what was happening at Abide or his role in it.” In
support, it cites decisions of this court for the purported principle that “proximity” to fraudulent activities alone can support an inference of knowledge of
unlawfulness.

4

Indeed, after its oral argument before this panel, the Government appropriately notified the court that it had made an
overstatement during oral argument, when it asserted that
Crinel had testified specifically that Nora knew about the fraud.
She had not done so.

App. 92
It is true that this court has held that “proximity
to the fraudulent activities” can lead to an inference of
knowledge of fraud. See, e.g., Willett, 751 F.3d at 340;
see also United States v. Thompson, 761 F. App’x 283,
291 (5th Cir. 2019) (per curiam) (finding the defendant’s “repeated exposure to the fraud” to be probative
of his knowledge). But in those cases, the defendants’
“proximity” to fraud was probative because it directly
exposed them to dishonest and fraudulent behavior.
For example, in Willett, the question was whether the
defendant knew about the fraudulent “upcoding” of
equipment bills sent to Medicare. 751 F.3d at 340.
There, the Government introduced evidence that the
defendant, after delivering equipment to hospitals and
receiving confirmatory delivery tickets in return,
would then be present (i.e., in “proximity”) while his coconspirator (who was also his wife of 35 years) “ripped
off or doctored codes on the delivery tickets,” or wrote
in codes where there were no existing codes. Id. Moreover, in these cases, there was other evidence separate
from “proximity” that proved the defendants’ knowledge of the fraud.5
5

For example, in Willett, a witness also testified that she had
overheard the defendant and his wife having a suspicious conversation that suggested they were engaging in wrongdoing and collaborating together. 751 F.3d at 340. In Thompson, there was
evidence that the defendant—a medical marketer—would drive
“fully ambulatory” patients to the doctor and watch them “get in
and out of her non-wheelchair accessible car,” all before referring
those same patients to the doctor as needing the use of powered
wheelchairs. 761 F. App’x at 291. In United States v. Martinez,
in addition to citing the defendants’ proximity to the fraud, this
court also pointed to the existence of direct video evidence

App. 93
Here, as already described, other evidence of
Nora’s knowledge is lacking. And the Government’s argument about Nora’s “proximity” to the fraud taking
place at Abide is devoid of specifics—it does not identify evidence showing that Nora directly observed, or
deliberately closed his eyes to, fraudulent behavior
such that a rational juror could infer that he knew
about Abide’s fraud. Therefore, Nora’s “proximity” to
Abide’s fraudulent practices does not supply sufficient
evidence to convict him.
In sum, even under our extremely deferential review of jury verdicts, there was insufficient evidence
put forth at trial for a rational juror to conclude beyond a reasonable doubt that Nora acted with the
knowledge that his conduct was unlawful. The Government thus failed to prove that Nora acted “willfully”
with respect to each count. Specifically, there was insufficient evidence proving (1) that Nora knew that
Abide was defrauding Medicare, through “ghosting,”
its use of house doctors, or otherwise (Count 1); (2) that
Nora knew that Abide’s referral payments constituted
illegal kickbacks (Count 2); or (3) that Nora had involvement with EvLa’s treatment at Abide (let alone

showing the defendants had engaged in fraudulent medical procedures and submitted false claims. 921 F.3d 452, 469, 471 (5th
Cir. 2019). Moreover, there was testimony that the non-doctor defendant in Martinez would make patient referral payments by
placing the cash behind a bathroom medicine cabinet, for the recipient to collect. Id. at 467. In upholding her conviction, the court
pointed to this deceptive practice as evidence that she knew of the
illegality of the payments. Id.

App. 94
that he knew she was not actually homebound) (Count
27).
IV.

CONCLUSION

For the foregoing reasons, we REVERSE Nora’s
convictions for conspiracy to commit health care fraud
(Count 1), conspiracy to pay illegal health care kickbacks (Count 2), and aiding and abetting health care
fraud (Count 27). We therefore also VACATE his sentence.

